<html>
<title> - PROMOTING SAFE AND EFFICIENT TRAVEL AND TRADE AT AMERICA'S LAND PORTS OF ENTRY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


               PROMOTING SAFE AND EFFICIENT TRAVEL AND 
                       TRADE AT AMERICA'S LAND PORTS 
                                OF ENTRY

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         OVERSIGHT, MANAGEMENT,
                           AND ACCOUNTABILITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 2, 2019

                               __________

                           Serial No. 116-52

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                   

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                              

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-468 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                              
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           Van Taylor, Texas
Elissa Slotkin, Michigan             John Joyce, Pennsylvania
Emanuel Cleaver, Missouri            Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON OVERSIGHT, MANAGEMENT, AND ACCOUNTABILITY

              Xochitl Torres Small, New Mexico, Chairwoman
Dina Titus, Nevada                   Dan Crenshaw, Texas, Ranking 
Bonnie Watson Coleman, New Jersey        Member
Nanette Diaz Barragan, California    Clay Higgins, Louisiana
Bennie G. Thompson, Mississippi (ex  Van Taylor, Texas
    officio)                         Mike Rogers, Alabama (ex officio)
                Lisa Canini, Subcommittee Staff Director
            Katy Flynn, Minority Subcommittee Staff Director
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Xochitl Torres Small, a Representative in Congress 
  From the State of New Mexico, and Chairwoman, Subcommittee on 
  Oversight, Management, and Accountability:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Dan Crenshaw, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Oversight, 
  Management, and Accountability:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               WITNESSES
                                Panel I

Mr. Hector A. Mancha, Jr., El Paso Director of Field Operations, 
  U.S. Customs and Border Protection:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Marco Grajeda, Director, New Mexico Border Authority, State 
  of New Mexico:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12

                                Panel II

Mr. Jerry Pacheco, President, Border Industrial Association:
  Oral Statement.................................................    22
  Prepared Statement.............................................    25
Mr. Felipe Otero, Logistics Manager, TPI Composites:
  Oral Statement.................................................    26
  Prepared Statement.............................................    28

                             FOR THE RECORD

The Honorable Xochitl Torres Small, a Representative in Congress 
  From the State of New Mexico, and Chairwoman, Subcommittee on 
  Oversight, Management, and Accountability:
  Statement of Jon Barela, CEO, The Borderplex Alliance..........    39
  Statement of Anthony M. Reardon, National President, National 
    Treasury Employees Union.....................................    40
  Statement of Dell Technologies.................................    46

 
 PROMOTING SAFE AND EFFICIENT TRAVEL AND TRADE AT AMERICA'S LAND PORTS 
                                OF ENTRY

                              ----------                              


                        Monday, December 2, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Oversight, Management, 
                                        and Accountability,
                                                  Santa Teresa, NM.
    The subcommittee met, pursuant to notice, at 12:30 p.m., in 
the New Mexico Border Authority, 221 Pete V Domenici Hwy, Santa 
Teresa, New Mexico, Hon. Xochitl Torres Small [Chairwoman of 
the subcommittee] presiding.
    Present: Representatives Torres Small and Crenshaw.
    Ms. Torres Small. Thank you. Sorry about that.
    I want to start by thanking New Mexico Border Authority for 
hosting us this afternoon. We truly appreciate the support your 
staff has provided.
    I am grateful for the opportunity to hold this important 
hearing on land ports of entry at my hometown district. I 
wanted to extend my thanks to the witnesses who have joined us 
today to discuss the challenges we face with infrastructure, 
technology, and staffing at our ports of entry.
    We know this is a community issue, that the work that gets 
done at our ports of entry also impacts economies across New 
Mexico and especially here in southern New Mexico.
    So I also want to thank the elected officials who have 
arrived today. Thank you to Mayor Ken Miyagishima in Los 
Cruces, County Commissioner Raul Gonzalez in Dona Ana County, 
Mayor Javier Perea in Sunland Park, Senator Mary Kay Papen, and 
Representative Nathan Small.
    I think it is especially fitting that we have Senator Papen 
here in the Frank Papen Building here at the New Mexico Border 
Authority.
    Of the 110 land ports of entry on the U.S. border, 3--Santa 
Teresa, Columbus, and Antelope Wells--are all in the district 
that I represent.
    Earlier this morning, Ranking Member Crenshaw and I had the 
opportunity to visit one of these ports, the Santa Teresa port 
of entry, just down the road from here.
    The visit was valuable to understanding the critical role 
the ports of entry and the Customs and Border Protection 
officers who staff those ports play in facilitating commerce 
and preventing contraband such as illegal drugs from entering 
the country.
    Unfortunately, many land ports of entry have outdated 
infrastructure, lack technology to detect contraband, and 
suffer from staffing shortages. We saw that overwhelmingly 
today, the challenges that happen when you need a larger work 
force to get the job done.
    For example, related to infrastructure, several ports of 
entry facilities are over 70 years old and even those that are 
15 to 20 years old are outdated and not keeping pace with CBP's 
current operational needs.
    In a July 2019 Government Accountability Office report, CBP 
officers identified poor conditions in existing facilities, 
insufficient inspection space, and design flaws that impede 
traffic flow.
    According to the same report, CBP's goal is to assess 
conditions at each CBP-owned land port of entry every 3 years. 
But it has not met this goal in recent years due to limited 
resources. This is a recurring theme that we have seen.
    Since well-functioning infrastructure is critical to 
effectively screen people in cargo and facilitate trade and 
travel, I would like to explore how we can assure these 
assessments are completed.
    Congress must fully understand the investment required to 
modernize our ports of entry. In addition to well-functioning 
infrastructure, ports require technology to effectively screen 
cargo and facilitate trade.
    A key technology for detecting contraband without slowing 
commerce is nonintrusive inspection--NII--systems.
    These systems allow officers to ``see'' inside a vehicle 
without physically opening it or unloading it. In 2019, 
recognizing the value of NII systems, Congress provided CBP 
with $570 million to install additional systems on the 
Southwestern Border.
    I introduced a bill last week along here with--co-sponsored 
by Ranking Member Crenshaw, requiring CBP to provide and 
implement--provide an implementation plan to Congress on how it 
is deploying and utilizing NII systems and how it is going to 
achieve 100 percent screening of all vehicles using these 
systems.
    By increasing NII scanning rates to 100 percent at all land 
ports of entry, we can guard against transnational criminal 
organizations, shifting their smuggling operations to other 
ports of entry along the border, particularly rural and remote 
ports.
    Although technology can be a great asset, it is no 
substitute for hardworking men and women who wear the CBP 
uniform. According to CBP's workload staffing model, CBP lacks 
more than 3,500 officers.
    I understand from the union representing CBP officers that 
the Santa Teresa port of entry is understaffed and CBP officers 
are having to work double shifts.
    This situation is not unique to New Mexico. This 
subcommittee explored CBP's recruitment and retention 
challenges at a hearing in March of this year.
    I know the agency has been trying to address the challenges 
through innovative means. But it is not a problem that will be 
quickly solved.
    One way that CBP is addressing staffing shortages is 
through public-private partnerships. Through these, entities 
such as private companies can pay salary and overtime expenses 
for officers to extend port hours.
    But we cannot use private investment as an excuse to delay 
critical job-growing investment that we need at the Federal 
Government.
    I would like to hear more about how CBP is leveraging these 
partnerships and to what extent they are sustainable in the 
long run, given the overtime required of officers.
    I look forward to discussing how we can enhance America's 
land ports of entry, including those here in New Mexico.
    [The statement of Chairwoman Torres Small follows:]
              Statement of Chairwoman Xochitl Torres Small
                            December 2, 2019
    I'm grateful for the opportunity to hold this important hearing on 
land ports of entry (POEs) at home in my own district. I also want to 
extend my thanks to the witnesses who have joined us today to discuss 
the challenges we face with infrastructure, technology, and staffing at 
POEs. Of the 110 land ports of entry on the U.S. border, 3--Teresa, 
Columbus, and Antelope Wells--are in the district I represent.
    Earlier this morning, Ranking Member Crenshaw and I had the 
opportunity to visit one of those ports--the Santa Teresa Port of 
Entry--just down the road from here. The visit was valuable to 
understanding the critical role ports of entry, and the Customs and 
Border Protection (CBP) officers who staff those ports, play in 
facilitating commerce and preventing contraband, such as illegal drugs, 
from entering the country. Unfortunately, many land POEs have outdated 
infrastructure, not enough technology to detect contraband, and suffer 
from staffing shortages. For example, related to infrastructure, 
several POE facilities are over 70 years old and even those that are 15 
to 20 years old are outdated and not keeping pace with CBP's current 
operational needs. In a July 2019 Government Accountability Office 
report, CBP officers identified poor conditions in existing facilities, 
insufficient inspection space, and design flaws that impede traffic 
flow. According to the same report, CBP's goal is to assess conditions 
at each CBP-owned land POE every 3 years, but it has not met this goal 
in recent years due to limited resources.
    Since well-functioning infrastructure is critical to effectively 
screen people and cargo, and facilitate travel and trade, I'd like to 
explore how we can ensure these assessments are completed. Congress 
must fully understand the investment required to modernize our POEs. In 
addition to well-functioning infrastructure, ports require technology 
to effectively screen cargo and facilitate trade. A key technology for 
detecting contraband without slowing commerce is non-intrusive 
inspection (NII) systems. These systems allow officers to ``see'' 
inside a vehicle without physically opening or unloading it. In 2019, 
recognizing the value of NII systems, Congress provided CBP $570 
million to install additional systems on the Southwest Border. I 
introduced a bill last week, cosponsored by Ranking Member Crenshaw, 
requiring CBP to provide an implementation plan to Congress on how it 
is deploying and utilizing NII systems and is going to achieve 100 
percent scanning of all vehicles using these systems. By increasing NII 
scanning rates to 100 percent at all land ports of entry, we can guard 
against transnational criminal organizations shifting their smuggling 
operations to other ports of entry along the border, particularly rural 
and remote ports. Although technology can be a great asset, it is no 
substitute for hard-working men and women who wear the CBP uniform.
    According to CBP's Workload Staffing Model, CBP lacks more than 
3,500 officers. I understand from the union representing CBP officers 
that the Santa Teresa POE is understaffed and CBP officers are having 
to work double shifts. This situation is not unique to New Mexico. This 
subcommittee explored CBP's recruitment and retention challenges at a 
hearing in March of this year. I know the agency has been trying to 
address the challenges through innovative means, but it is not a 
problem that will be quickly solved. One way that CBP is addressing 
staffing shortages is through public-private partnerships. Through 
these, entities such as private companies, can pay salary and overtime 
expenses for officers to extend a port's hours. But we cannot use 
private investment as an excuse to delay critical job-growing 
investment. I'd like to hear more about how CBP is leveraging these 
partnerships and to what extent they are sustainable in the long run 
given the overtime required of officers. I look forward to discussing 
how we can enhance America's land ports of entry, including those here 
in New Mexico.

    Ms. Torres Small. The Chair now recognizes the Ranking 
Member of the subcommittee, the gentleman from Texas, Mr. 
Crenshaw, for an opening statement.
    Mr. Crenshaw. Thank you, Chairwoman Torres Small, for 
hosting this field hearing. It has been great--it is great to 
be in beautiful New Mexico.
    Happy to be here and thank you for working with me to find 
a suitable time so I could actually take part in this. I really 
appreciate it. Very glad to be here with you all.
    Thank you to our two panels of witnesses. I look forward to 
hearing your testimony or expert opinions and your 
recommendations.
    Customs and Border Protection estimates that approximately 
11 million containers arrive by truck and another 2.7 million 
arrive by rail into the United States annually.
    On an average day, over 350,000 vehicles, 135,000 
pedestrians, and 30,000 trucks pass through the border crossing 
into the United States through the 110 land ports of entry.
    CBP is responsible for ensuring the cargo is not hazardous 
to the American people and that the appropriate duties on the 
products are collected.
    As Members of the Committee of Homeland Security, we 
understand that border security is essential to our National 
security. We also understand the vital role that trade and 
tourism play in our economy.
    CBP officers at our ports of entry have a critical role to 
play in keeping our homeland safe as the front line of defense 
against terrorists and traffickers.
    They also have a critical role to play in ensuring that 
legitimate businesses can get the products that they need to 
operate. We must ensure that CBP has the necessary 
infrastructure, technology, and staffing to effectively manage 
our ports entry.
    Infrastructure at the ports include processing lanes, 
buildings with agricultural labs, travel or processing areas, 
commercial facilities, and holding areas.
    Technology and tools to assist CBP include radiation portal 
monitors, radiation isotope identification devices, personal 
radiation detectors, radio frequency identification, and 
nonintrusive inspection technology. There is going to be a quiz 
on that after.
    [Laughter.]
    Mr. Crenshaw. All these tools, in conjunction with 
appropriate staffing levels, allow CBP to carry out their 
mission. CBP is currently conducting a pilot program to utilize 
drive-through technology and facial recognition tools to manage 
traffic flow and reduce wait lines at the land-based ports of 
entry.
    CBP is working to incorporate the next generation of 
technology into its operations. Agents cannot always be in all 
places at all times and the right technology gives them the 
opportunity to target resources.
    These tools can act as a force multiplier and improve our 
ability to stop nefarious actors before they enter the United 
States.
    As we face an increase in border trade and traffic, not 
only must we continue to seek to develop and utilize new and 
effective technology but we must also have enough personnel to 
effectively manage the flow.
    In recent years, CBP has had trouble meeting its targets 
for staffing for its law enforcement entities. These staffing 
shortages create risk to National security, delay commerce, and 
put additional strain on a stressed work force.
    The lengthy hiring process may be part of the problem as it 
includes 11 steps and a background investigation, medical exam, 
and a polygraph examination. It was easier to become a SEAL. 
OK.
    So the average--the average length of time to hire an 
applicant in 2018 was 300 days for a CBP officer. Even the most 
dedicated individuals could be discouraged by such a long 
delay.
    One of the biggest barriers bringing on talents in recent 
years appears to be the polygraph process, which appears to 
have an unusually high failure rate.
    To address this, I have introduced legislation to attract 
veteran, State, and local law enforcement and other Federal law 
enforcement officers to CBP by allowing the polygraph to be 
waived for these individuals if they possess the appropriate 
clearances.
    I am hopeful this will speed up the hiring process and 
allow CBP to get officers in place at ports of entry more 
quickly.
    CBP is responsible for protecting the safety and security 
of the country by preventing traffickers and terrorists from 
gaining entry through our borders. It is not an easy job.
    I have the utmost respect for the men and women who do this 
difficult job and I want to make sure that they have the 
resources they need to purchase effective technology and update 
their infrastructure and attract and retain talent.
    I look forward to hearing from today's witnesses on the 
best ways to achieve that goal.
    I yield back.
    [The statement of Ranking Member Crenshaw follows:]
                Statement of Ranking Member Dan Crenshaw
                              Dec. 2, 2019
    Thank you Chairwoman Torres Small for hosting this field hearing 
and for working with me to find a suitable time so I could take part in 
this important discussion on ports of entry. Thank you to our 2 panels 
of witnesses, I look forward to your hearing your testimony, your 
expert opinions, and your recommendations.
    Customs and Border Protection estimates that approximately 11 
million containers arrive by truck and another 2.7 million arrive by 
rail into the United States annually. On an average day, over 350,000 
vehicles, 135,000 pedestrians and 30,000 trucks pass through the border 
crossings in the United States through the 110 land Ports of Entry. CBP 
is responsible for ensuring the cargo is not hazardous to the American 
people and that the appropriate duties on the products are collected.
    As Members of the Committee on Homeland Security, we understand 
that border security is essential to our National security. We also 
understand the vital role that trade and tourism play in our economy. 
CBP officers at our ports of entry have a critical role to play in 
keeping our homeland safe as the front line of defense against 
terrorists and traffickers. They also have a critical role to play in 
ensuring that legitimate businesses can get the products that they need 
to operate.
    We must ensure CBP has the necessary infrastructure, technology, 
and staffing to effectively manage our ports of entry. Infrastructure 
at the ports include processing lanes, buildings with agriculture labs, 
traveler processing areas, commercial facilities, and holding areas. 
Technology and tools to assist CBP include Radiation Portal Monitors, 
Radiation Isotope Identification Devices, Personal Radiation Detectors, 
Radio Frequency Identification, and Non-Intrusive Inspection 
technology. All of these tools, in conjunction with appropriate 
staffing levels, allow CBP to carry out their mission.
    CBP is currently conducting a pilot to utilize drive-through 
technology and facial recognition tools to manage traffic flow and 
reduce wait times at the land-based ports of entry. CBP is working to 
incorporate the next generation of technology into its operations. 
Agents cannot always be in all places at all times, and the right 
technology gives them the opportunity to target resources. These tools 
can act as a force multiplier and improve our ability to stop nefarious 
actors before they enter the United States.
    As we face an increase in border trade and traffic, not only must 
we continue to seek to develop and utilize new and effective 
technology, but we must also have enough personnel to effectively 
manage the flow. In recent years, CBP has had trouble meeting its 
targets for staffing for its law enforcement entities. These staffing 
shortages create risks to National security, delay commerce, and put 
additional strain on a stressed workforce.
    The lengthy hiring process may be part of the problem, as it 
includes 11 steps and a background investigation, medical examination, 
and a polygraph examination. The average length of time to hire an 
applicant in 2018 was 300 days for a CBP officer. Even the most 
dedicated individuals could be discouraged by such a long delay.
    One of the biggest barriers to bringing on talent in recent years 
appears to be the polygraph process, which appears to have an unusually 
high failure rate. To address this, I have introduced legislation to 
attract veterans, State and local law enforcement, and other Federal 
law enforcement officers to CBP by allowing the polygraph to be waived 
for these individuals if they possess the appropriate clearances. I am 
hopeful this will speed up the hiring process and allow CBP to get 
officers in place at ports of entry more quickly.
    CBP is responsible for protecting the safety and security of the 
country by preventing traffickers and terrorists from gaining entry 
through our borders. It is not an easy job. I have the utmost respect 
for the men and women who do this difficult job. I want to make sure 
that they have the resources they need to purchase effective technology 
and update their infrastructure and attract and retaining talent. I 
look forward to hearing from today's witnesses on the best ways to 
achieve that goal.

    Ms. Torres Small. Thank you, Ranking Member Crenshaw.
    Before I introduce--other Members of the committee are 
reminded that under the committee rules opening statements may 
be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                            December 2, 2019
    Today, the committee has the opportunity to hear about Customs and 
Border Protection's (CBP) needs at land ports of entry (POE). One such 
crucial need is additional CBP officers. Earlier this year, this 
subcommittee heard testimony about CBP's workforce shortages, and the 
recruitment and retention challenges faced by the agency. In the 
intervening months, the administration has advocated for hiring Border 
Patrol agents without seeking the necessary boost in CBP officers for 
our POEs. The President's budget request for this fiscal year included 
$192 million to hire 750 Border Patrol agents and a mere 171 CBP 
officers. Yet, it is the CBP officers who staff our POEs, where most of 
the dangerous drugs are smuggled into the United States.
    These officers are also responsible for enabling legitimate trade 
and travel by processing people and cargo that is essential to border 
communities and our Nation's economy. I look forward to hearing from 
our witnesses today about the staffing needed to enhance security and 
increase trade at ports of entry including the ones in New Mexico. In 
addition to staffing, technology used at our POEs is key to detecting 
and interdicting contraband while still facilitating the flow of 
commerce. For example, Non-Intrusive Inspection (NII) systems take an 
image to ``see'' inside vehicles and containers to detect drugs, guns, 
stowaways, or currency without physically opening or unloading them.
    I cannot emphasize enough how critical this technology is to 
combatting drug trafficking without impeding trade. The President only 
sought $44 million for NII systems at ports of entry in his fiscal year 
2019 budget request. Fortunately, Congress provided $570 million. It is 
unclear to me how this money is being put to use, however. CBP informed 
the committee last month that it plans to use the funds to increase 
scanning rates at POEs along the Southwest Border, but it doesn't know 
how many systems will be deployed, at which ports, or by when.
    I am hopeful the Chairwoman's bill requiring an NII implementation 
plan will get us the information we need to assess future deployments 
of these valuable systems. Finally, the upkeep and update of 
infrastructure at ports of entry is key to CBP effectively and 
efficiently processing and inspecting passengers and cargo. For 
example, at the Santa Teresa POE, an overweight lane allows for the 
movement of commercial vehicles, like those transporting wind blades to 
be used in wind turbines. I understand our witnesses will testify that 
the lane is not sufficient to efficiently accommodate the size of some 
of the cargo coming through the port. As such, TPI Composites, the 
company that produces those wind blades, is negotiating an agreement 
with CBP to invest its own money in the port to improve the overweight 
lane.
    Unfortunately, the Federal Government is not keeping pace with the 
necessary investments that need to be made at POEs to expand commerce 
and promote job growth. I look forward to a productive hearing about 
how limitations in staffing, technology, and infrastructure at our land 
ports of entry impact trade and security and how we can address those 
challenges together.


    Ms. Torres Small. Before I introduce our witnesses, I also 
just wanted to thank Border Patrol for their presence here as 
well. As the Chair of Oversight, Management, and Accountability 
for the Subcommittee--the Subcommittee of Oversight, 
Management, and Accountability for Homeland Security, it is 
always encouraging to see collaboration between our men in blue 
and our men in green. So thank you both for sitting together.
    I now welcome our first of 2 panel of witnesses. Our first 
witness is Mr. Hector A. Mancha, Jr., who serves as the El Paso 
Director of Field Operations for U.S. Customs and Border 
Protection--CBP.
    In this role, Mr. Mancha oversees the operation of 11 
international land ports of entry in Texas and New Mexico, 3 
airport operations, and 2 railroad crossings.
    He joined CBP in 1991 and has served in many roles since 
then including port director for the Port of Hidalgo and 
assistant director for the field operations for the Laredo 
Field Office.
    Our second witness, Mr. Marco Grajeda, leads the New Mexico 
Border Authority for the State of New Mexico. As the director, 
Mr. Grajeda works to facilitate trade, job training, and 
economic development efforts along the New Mexico border.
    As a former staffer for United States Senator Tom Udall, he 
worked to fund construction of the Columbus port of entry and 
to extend hours at the Santa Teresa port of entry.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I now ask each witness to summarize his statements for 5 
minutes, beginning with Mr. Mancha.

 STATEMENT OF HECTOR A. MANCHA, JR., EL PASO DIRECTOR OF FIELD 
         OPERATIONS, U.S. CUSTOMS AND BORDER PROTECTION

    Mr. Mancha. Good afternoon, Chairwoman Torres Small, 
Ranking Member Crenshaw. I am honored to be here today to 
discuss U.S. Customs and Border Protections' mission to secure 
the Nation's borders while facilitating lawful trade and 
travel.
    CBP operates 328 land, air, and sea ports of entry across 
the United States and have a intercontinental network of 16 
preclearance stations located in 6 countries around the globe.
    Based on fiscal year 2019 data, on a typical day CBP 
processes over 1.1 million passengers and pedestrians, more 
than 285,000 privately-owned vehicles, over 81,000 truck, rail, 
and sea containers, and approximately $7.7 billion worth of 
imported goods.
    The threat environment in which CBP operates is ever so 
dynamic and complex. Our adversaries continually adapt their 
methods to avoid detection and conduct illicit activities that 
undermine our economic and National security.
    Advanced detection technology is a force multiplier in the 
agency's multi-layered enforcement strategy. Our nonintrusive 
inspection systems and radiation detection equipment help us 
inspect conveyances in vehicles for contraband in a quick and 
efficient manner.
    CBP Nation-wide utilizes 320 large-scale NII systems at our 
ports of entry. In fiscal year 2019, approximately 6.6 NII 
scans resulted in the seizure of 316,203 pounds of narcotics, 
$3 million of undeclared U.S. currency, 1,655 weapons, and 200 
undeclared passengers hidden within commercial cargo.
    We encounter operational challenges at all our ports of 
entry on a daily basis, none more so than the land port of 
entry at Santa Teresa, New Mexico.
    As commercial and demographic trends combined with 
infrastructure constraints to expand traffic volumes moving 
away from the El Paso-Ciudad Juarez urban environments.
    Santa Teresa, nevertheless, experienced continued growth in 
fiscal year 2019 in all categories to include a 10 percent 
increase in commercial traffic over fiscal year 2018.
    In the past 2 years, the port recorded 40 separate seizures 
of narcotics with an estimated value of approximately $3.5 
million.
    While we have experienced growth in our workload volumes 
and enforcement activity at Santa Teresa, our staffing levels 
at the port has remained static over the last several years 
with under a hundred personnel assigned to this location.
    Additionally, the personnel challenges we face in fiscal 
2019 related to mass migration surges required some staff from 
Santa Teresa to deploy to other locations.
    As we return our deployed staff back to the port, I also 
continue to engage with our headquarters to ensure the agency's 
workload staffing model accurately captures port data and that 
is appropriately reflects the current and projected growth at 
Santa Teresa and drives increases in staffing accordingly.
    As threats to American National security constantly evolve, 
CBP efforts to facilitate lawful trade and travel while 
safeguarding the Nation's borders must also continually evolve.
    Investments in cutting-edge technology and infrastructure 
modernization and right-sizing our personnel are essential to 
CBP's mission success.
    CBP is committed to continued engagement with this 
committee, interagency partners, industry stakeholders as we 
work through the efficiencies of our risk management efforts 
while maximizing security.
    Thank you for the opportunity to testify here today. I look 
forward to your questions.
    [The prepared statement of Mr. Mancha follows:]
                  Prepared Statement of Hector Mancha
                            December 2, 2019
    Chairwoman Torres Small, Ranking Member Crenshaw, and distinguished 
Members of the subcommittee, it is my honor to appear before you today 
to discuss the U.S. Customs and Border Protection's (CBP) mission to 
secure the Nation's borders while facilitating the lawful trade and 
travel that undergird the American way of life.
    CBP's port operations span 328 land, air, and sea Ports of Entry 
across the United States and include an intercontinental network of 16 
preclearance stations located in 6 countries around the globe. On any 
given day, CBP processes over 1.1 million passengers and pedestrians; 
in excess of 285,000 privately-owned vehicles; over 81,000 truck, rail, 
and sea containers; and approximately $7.7 billion worth of imported 
goods. In the same day, CBP will arrest 75 wanted criminals; identify 
1,607 individuals with suspected National security concerns; quarantine 
4,552 materials posing potential threats to U.S. agriculture, wildlife, 
and natural resources; and seize $3.7 million worth of products with 
Intellectual Property Rights violations. These statistics \1\ 
demonstrate both the important work that CBP does to facilitate lawful 
trade and travel and evince CBP's commitment to faithfully execute its 
critical National security mission.
---------------------------------------------------------------------------
    \1\ Based on data from fiscal year 2019.
---------------------------------------------------------------------------
    The threat environment in which CBP operates is dynamic and 
complex. Terrorist groups, transnational criminal organizations, and 
other adversarial actors are continually improving and adapting their 
methodologies in order to avoid detection and conduct illicit 
activities that undermine the economic and National security of the 
United States. Recognizing these realities, CBP has adopted a risk-
management paradigm that employs resources to identify, target, and 
mitigate the high-risk threats of today while also prioritizing 
investment in the innovative technologies and port modernization 
efforts that will secure America's borders tomorrow and beyond.
                     advanced detection technology
    CBP considers the security benefits and operational efficiencies 
provided by advanced detection technology to be a force multiplier in 
the agency's multi-layered enforcement strategy. Through the 
utilization of Non-Intrusive Inspection (NII) systems and Radiation 
Detection Equipment (RDE), CBP is able to inspect conveyances and 
vehicles for contraband and illicit radiological materials with 
enhanced efficacy and efficiency.
    Presently, CBP's Office of Field Operations utilizes 320 large-
scale NII systems and 315 hand-held Gemini<SUP>TM</SUP> systems at air, 
land, and sea ports of entry. CBP's utilization of NII and RDE systems 
has been met with remarkable success. In fiscal year 2019, CBP ports 
conducted approximately 6.6 million NII scans which resulted in the 
seizure of 316,203 pounds of narcotics, $3 million of undeclared U.S. 
currency, 1,655 weapons, and 200 undeclared passengers hidden within 
commercial cargo. In addition to this, the time saved by utilizing 
these advanced detection technologies has resulted in a $1 billion 
annual cost avoidance in CBP operations, and a $5.8 billion to $17.5 
billion cost avoidance to industry by minimizing shipment delays.
    CBP's successful integration of advanced detection technology has 
prompted additional investment in NII and RDE. At the end of fiscal 
year 2019, CBP procured 75 additional handheld Gemini<SUP>TM</SUP> 
units with planned deployments scheduled throughout fiscal year 2020. 
CBP is also in the process of procuring new drive-through NII 
technology that will reduce the current time per scan from 8 minutes to 
1 minute. Additional planned investments in NII technology will expand 
CBP's use of NII scans for Privately-Owned Vehicles (POVs) and 
Commercially-Owned Vehicles (COVs) crossing the Southwest Border. CBP 
currently utilizes NII technology to scan less than 2 percent of POVs 
and 15 percent of COVs crossing the Southwest Border. By fiscal year 
2023, CBP expects to increase NII scans of POVs and COVs crossing the 
Southwest Border to 40 percent and 72 percent respectively.
                   land ports of entry modernization
    CBP's network of 167 Land Ports of Entry (LPOEs) stand as both 
gateways to the United States and bulwarks against adversaries. Through 
this network, CBP facilitates the lawful trade and travel that promotes 
economic prosperity while simultaneously combatting the threats of 
terrorism and transnational crime.
    Of the 167 LPOEs that CBP operates, two-thirds have not seen any 
capital improvements in the past decade. Collectively, these ports have 
an average age of 39 years--9 years beyond their useful design lives. 
In an annual report entitled ``Land Port of Entry Modernization: 
Promoting Security, Travel, and Trade,'' CBP, in collaboration with the 
U.S. General Services Administration and Office of Management and 
Budget, identifies priority LPOE modernization projects that would 
significantly improve CBP's ability to efficiently execute its critical 
mission. With $2.8 billion in requisite recapitalization funding, this 
investment would modernize 15 GSA-owned land ports, including 
provisions to acquire land and procure design work--the necessary 
prerequisites--for large-scale, phased capital projects at 2 of them, 
plus outfitting for 4 projects already under construction.
    In fiscal year 2019, GSA received $191 million in appropriations to 
facilitate the LPOE modernization efforts identified in the 
aforementioned report. In fiscal year 2020, CBP and GSA anticipate 
appropriations that will support continued LPOE modernization efforts 
at priority LPOEs on the Southwest Border.
                               conclusion
    As the shifting risk landscape constantly introduces new threats to 
America's National security, CBP's efforts to facilitate lawful trade 
and travel while safeguarding the Nation's borders must continually 
evolve. CBP's multilayered risk-based security approach combined with 
the prioritization of investments in cutting-edge technology and 
infrastructure modernization efforts are essential to the agency's 
overarching strategy for combatting the terrorist groups, transnational 
criminal organizations, and adversarial actors seeking to undermine the 
economic and National security of the United States. CBP is committed 
to continued engagement with this committee, interagency partners, and 
industry stakeholders as we work to increase the efficiency of our 
risk-management efforts while maximizing security.
    Thank you for the opportunity to submit this testimony. I look 
forward to your questions.

    Ms. Torres Small. Thank you, Mr. Mancha.
    I now recognize Mr. Grajeda to summarize his statement for 
5 minutes.

    STATEMENT OF MARCO GRAJEDA, DIRECTOR, NEW MEXICO BORDER 
                 AUTHORITY, STATE OF NEW MEXICO

    Mr. Grajeda. Thank you, Madam Chair, for the opportunity to 
address the subcommittee today and welcome you to Santa Teresa, 
New Mexico.
    I am Marco Grajeda, the executive director of the New 
Mexico Border Authority, an executive branch agency that 
facilitates the development of infrastructure around the 
State's 3 land ports of entry.
    As a fronterizo with direct ties to the United States and 
Mexico, I know first-hand the importance of our ports of entry. 
Like many people who call this region home, I have family and 
friends on both sides of the border and I have spent many hours 
at our ports of entry waiting to get from one side to the 
other.
    My background is unique to this area, where every day 
people cross the border for work, school, to shop, and visit 
loved ones. This is life on the border and thus a key reason 
why our ports of entry are incredibly important to this 
binational region.
    In terms of trade, our land ports of entry are proving to 
be one of America's greatest investments. This region, for 
example, now leads the State in exports because of the work 
done here and thanks to the critical role of the Santa Teresa 
port of entry.
    Last year, exports totaled more than $1.4 billion, nearly 
twice as much as the larger Albuquerque metro area which, until 
recently, held a comfortable lead in the States.
    Also, our neighbor city, El Paso, Texas, has seen 
tremendous growth in the last decade and is now on the list of 
top 10 export markets.
    It is important to note that the benefits of our land ports 
of entry extends far beyond the border region. According to the 
U.S. Department of Commerce, 32 States around the country have 
Mexico as their first-, second-, or third-largest export 
market. That includes States as far from the border like Ohio, 
Iowa, and Pennsylvania.
    While this growth tied to our ports is significant, more 
can be achieved with strategic Federal investments. So what is 
needed?
    A major selling point for the Santa Teresa port of entry 
has been shorter wait times compared to other ports in the 
region. This continues to be the case on the commercial side.
    But because we don't have as many Customs officers as we 
need, wait times have increased on the privately-owned vehicles 
side.
    This needs to be addressed and this is not something that 
the local leadership can fix because the region has simply not 
received any new Customs officers in the past 7 years, even 
though the port has seen the fastest growth rate in crossings, 
new programs and duties were added, and despite losing 5 to 6 
Customs officers each year during that time.
    At the nearby Columbus port of entry we recently celebrated 
the completion of an $85 million port of entry. But they also 
don't have enough officers to fully take advantage of the 
updated facility.
    Having more men and women in blue working in our ports will 
expedite screenings, reduce wait times, and encourage greater 
investment in the region.
    When it comes to infrastructure improvements the port with 
the greatest need for Federal investment in New Mexico is Santa 
Teresa port of entry, which is long overdue for a major 
expansion and modernization.
    As I mentioned earlier, this region is leading the State in 
exports, despite inefficiencies at the port. But an updated 
crossing would further promote increased economic activity in 
the State and provide a much-needed reliever route for Ciudad 
Juarez and El Paso.
    As we work toward that goal, enhancements that facilitate 
the flow of oversized and overweight cargo northbound and 
southbound should be prioritized.
    This is especially true for oversized vehicles heading 
south that now cross through our port through northbound 
passenger lanes, essentially blocking traffic for several 
hours.
    Another priority project is working with Mexico to expand 
lanes on their side heading northbound to alleviate bottleneck 
issues.
    I also want to share that the New Mexico Border Authority 
is working to protect the area surrounding the Columbus port of 
entry from recurring flooding, which impacts port operations 
each year. We would welcome any assistance from this committee 
as we seek Federal funding.
    Last, I will mention at the New Mexico Border Authority we 
are working to take advantage of the Federal donations 
acceptance program to pay for a containment site at the Santa 
Teresa port of entry.
    This would open the port of entry to new cargo including 
medical equipment, airbags, and fuel. This project is a 
priority for the region and could significantly boost daily 
commercial crossings and make the region more attractive to 
businesses.
    I want to close by saying thank you again for being here 
and for holding this important field hearing. Like you, we are 
committed to working on behalf of our great binational 
communities and the many States that benefit from trade with 
Mexico.
    We are your partners on the ground and we welcome your 
continued support. Thank you.
    [The prepared statement of Mr. Grajeda follows:]
                  Prepared Statement of Marco Grajeda
    Thank you Madam Chair for the opportunity to address the 
subcommittee today and welcome to Santa Teresa, New Mexico. I'm Marco 
Grajeda, the executive director of the New Mexico Border Authority, an 
executive branch State agency that facilitates the development of 
infrastructure around our State's 3 land ports of entry.
    As a fronterizo, with direct ties to the United States and Mexico, 
I know first-hand the importance of our ports of entry. Like many 
people, who call this region home, I have family and friends on both 
sides of the border, and I've spent many hours at our ports of entry 
waiting to get from one side to the other. My background is unique to 
this area, where every day, people cross the border for work, school, 
to shop and visit loved ones. This is life on the border, and a key 
reason why our ports of entry are incredibly important to this 
binational region.
    In terms of trade, our land ports of entry are proving to be one of 
America's greatest investments. This region, for example, now leads the 
State in exports, because of the work done here, and thanks to the 
critical role of the Santa Teresa Port of Entry. Last year, exports 
totaled more than $1.4 billion, nearly twice as much as the larger 
Albuquerque metro area, which until recently held a comfortable lead in 
the State. Also, our neighbor city, El Paso, Texas has seen tremendous 
growth in the last decade--and is now on the list of top 10 export 
markets. It's important to note, that the benefit of our land ports of 
entry extends far beyond the border region. According to the U.S. 
Department of Commerce, 32 States across the country, have Mexico as 
their first, second, or third largest export market. That includes 
States far from the border like Ohio, Iowa, and Pennsylvania
    While this growth tied to our ports is significant--more can be 
achieved with strategic Federal investments.
    So what is needed? A major selling point for the Santa Teresa Port 
of Entry has been shorter wait times compared to other ports in the 
region. This continues to be the case on the commercial side, but 
because we don't have as many customs officers as we need, wait times 
have increased on the privately-owned vehicle side. This needs to be 
addressed. And this is not something the local leadership, because the 
region has not received any new customs officers in the past 7 years, 
even though the port has seen the fastest growth rate in crossings, new 
programs and duties were added, and despite losing 5 to 6 customs 
officers each year during that time. At the nearby Columbus Port of 
Entry, we recently celebrated the completion of an $85 million port of 
entry, but they also don't have enough officers to fully take advantage 
of the updated facility. Having more men and women in blue working in 
our ports will expedite screenings, reduce wait times and encourage 
greater investment.
    When it comes to infrastructure improvements, the port with the 
greatest need for Federal investment in New Mexico is Santa Teresa, 
which is long overdue for a major expansion and modernization. As I 
mentioned earlier, this region is leading the State in exports, despite 
inefficiencies at the port, but an updated crossing would further 
promote increased economic activity in the State and provide a much-
needed reliever route for Ciudad Juarez and the city of El Paso. As we 
work toward that goal, enhancements that facilitate the flow of 
oversized and overweight cargo northbound and southbound should be 
prioritized. This is especially true for oversized vehicles heading 
south, that now cross the port through north-bound passenger lanes--
essentially blocking trade and travel for several hours. Another 
priority project is working with Mexico to expand lanes heading north-
bound to alleviate bottleneck issues.
    I also want to share that the Border Authority is working to 
protect the area surrounding the Columbus Port of Entry from recurring 
flooding, which impacts port operations each year. We would welcome any 
assistance from this committee as we seek Federal funding.
    Last, I want to mention that at the New Mexico Border Authority we 
are working to take advantage of the Federal Donations Acceptance 
Program, to pay for a containment site at the Santa Teresa POE. This 
would open the port of entry to new cargo, including medical equipment, 
airbags, and fuel. This project is a priority for the region and could 
significantly boost daily commercial crossings and make the region more 
attractive to businesses.
    I want to close by saying thank you again for being here and for 
holding this important field hearing. Like you, we are committed to 
working on behalf of our great binational communities and the many 
States that benefit from trade with Mexico. We are your partners on the 
ground and we welcome your continued support.
    Thank you.

    Ms. Torres Small. I thank all the witnesses for their 
testimony and I will remind each Member--Representative 
Crenshaw, in this case--that we have 5 minutes to question the 
panel. I will now recognize myself for those questions.
    Director Mancha, Representative Crenshaw and I have 
recently introduced a bill to encourage CBP to increase NII 
scanning rates of commercial and passenger vehicles to 100 
percent across land ports of entry to better stem the flow of 
contraband across the United States borders.
    You mentioned in your opening statement the importance of 
this technology. I understand that CBP plans on installing 
additional NII systems across the Southwestern Border after 
receiving $570 million from Congress in fiscal 2019.
    Do you know what the current NII scanning rates are for 
commercial and passenger vehicles at ports of entry under your 
jurisdiction and at Columbus and Santa Teresa specifically?
    Mr. Mancha. I don't know if I know the exact rates for 
the--specifically for the port of Santa Teresa. But I know that 
for--in general, for POVs--those vehicles coming in at our 
bridges--the scan rate is approximately 2 to 3 percent of all 
vehicles coming in.
    For commercial vehicles the scan rate raises to about 15 to 
20 percent, on average. That is what we are basically seeing as 
the scan rates utilizing our technology.
    Ms. Torres Small. Thank you. That sounds like your POVs are 
actually above the National average, which is only 1 percent. 
So I appreciate you working to do that.
    Have you received any information from National about how 
CBP is planning to use the $570 million to increase NII 
scanning rates?
    Mr. Mancha. I know that there is currently a pilot on the 
upgrading of the NII systems occurring at another AOR in south 
Texas. They are trying different new technology for this--for 
this NII technology.
    Based on those results and those--once those assessments 
are completed, then we will realize what type of system we will 
be acquiring. So we are expecting that that assessment should 
be completed pretty soon.
    Ms. Torres Small. So you haven't received an specific 
information about how that money might be invested in Santa 
Teresa or in your area of operation?
    Mr. Mancha. Not specifically. We have had a couple of 
visits from NII headquarters, the NII director, Mr. Watt, 
coming down.
    He did visit my AOR and he visited the ports both at El 
Paso and here in Santa Teresa and looking at different 
assessment feasibilities and trying to figure out, you know, 
where would be best to situate this new equipment.
    Ms. Torres Small. Great.
    What actions, if any, is CBP taking to ensure the safety of 
travel and trade at smaller ports of entry like Santa Teresa 
and Columbus as scanning rates are increased at larger ports of 
entry and criminal organizations might act to avoid those 
operations?
    Mr. Mancha. Well, CBP has a multilayered enforcement 
strategy. It means that we use all the tools in our toolbox. So 
we might be doing pre-primary roving to scan those vehicles. We 
have our K-9 handlers or officers roving with the upcoming 
traffic.
    We also utilize all our databases. You know, when cars 
approach our primaries, they do--or do a run through our 
computer systems in trying to vet these people.
    So that is part of the layer of enforcement. We did install 
a sea portal at the port of Santa Teresa in the latter part of 
2018.
    So that was a increase of our NII technology. Of course, 
that also requires more resources to utilize it so we are 
working on trying to get more resources and more certified 
officers to utilize that equipment and trying to run more of 
these vehicles through that equipment.
    Ms. Torres Small. Just to underline that, so more resources 
means more training, more officers, so that you can operate the 
technology?
    Mr. Mancha. That is correct.
    Ms. Torres Small. Thank you.
    I want to shift more to additional infrastructure at the 
Santa Teresa port of entry. I appreciated in your comments that 
ports need to continue to evolve with changing demands and, Mr. 
Grajeda, you mentioned the interest in the hazmat opportunity.
    Can you describe a little more the impact that would have 
for this region?
    Mr. Grajeda. Sure. So the hazmat containment site that we 
are--right we are requesting State funds for would essentially 
open the port of entry to, you know, cargo such as fuel, 
medical supplies, other things that essentially right now are 
limited to one port of entry, the Ysleta-Zaragoza port of entry 
in El Paso, which is already at peak in its capacity.
    So this project, essentially opening, you know, this 
traffic to--at the Santa Teresa port of entry would create a 
reliever route for this cargo that is essential to our industry 
and it would also open up additional investment.
    Each year, we hear from industry that there is interest in 
a company moving to this area but they want to be located near 
a hazmat-ready port of entry.
    Because we don't have a hazmat port, those companies aren't 
investing here and so we are losing money and we are losing 
jobs in this area.
    Ms. Torres Small. Thank you.
    Mr. Mancha, does the Santa Teresa port of entry have plans 
to pursue this effort?
    Mr. Mancha. Absolutely. I do think that it is a great 
opportunity to expand the opportunities that the port can 
offer.
    But we want to make sure we do it right in terms of making 
sure that we get with all the appropriate authorities so that 
when we do open up the port for hazmat, you know, that make 
sure that the--all the boxes have been checked off and ensure 
that we can do it in a safe manner.
    Ms. Torres Small. Thank you.
    Just last question before I shift over to Congressman 
Crenshaw, has--for either of you, can you describe any 
additional challenges that infrastructure deficiencies at Santa 
Teresa has had when it comes to the flow of commerce?
    Mr. Mancha. Well, I want to start off by saying that the--
with the recent migrant surge, you know, and having to deploy 
officers to address that, that definitely has an impact to the 
flow of commerce.
    When I have got to deploy officers either to Border Patrol 
or we deployed some to the West Coast earlier last year and so 
that has a impact to our ability to open more lanes, the amount 
of how traffic flows is moving. So you actually, you know, 
start generating longer wait times because of those 
deployments.
    So that has had an adverse impact on commerce.
    Ms. Torres Small. Thank you.
    I am out of time so I now recognize the Ranking Member of 
the subcommittee, the gentleman from Texas, Mr. Crenshaw, for 
questions.
    Mr. Crenshaw. Thank you, Madam Chairwoman.
    Again, thank you all for being here. Director Mancha, I 
will begin with you. In your testimony you mentioned the CBP 
and GSA have obtained funding to begin land POE modernization.
    I was just curious what specific improvement projects are 
planned for Santa Teresa and nearby El Paso, if any?
    Mr. Mancha. So you know that any capital--major capital 
improvements is a long drawn-out process and so there is plans 
for expanding our passenger secondary here at the port of Santa 
Teresa. That has been in the works.
    My understanding is that CBP has approved. We are just 
waiting for the approval of the budget and trying to move 
forward with that particular project.
    There is also plans of trying to modernize the Bridge of 
the Americas in El Paso. I know that that is already within the 
plans for CBP and GSA.
    Mr. Crenshaw. OK. Can you expand a little bit on what you 
have heard from that pilot program in--I believe it is in 
Brownsville--on the drive-through--the drive-through technology 
that is being piloted there and is it--does it seem promising? 
Have you--have you had the chance to see it for yourself?
    Mr. Mancha. I have only been briefed on it, and I think 
that there are several ports, not only the port of Brownsville, 
Hidalgo, again, the port of Progresso and even perhaps the port 
of Laredo.
    They are trying different systems, in particular the drive-
through system, in trying to see if it meets our needs. 
Obviously, if it does, we will see some definite efficiencies, 
reducing the scan rates from 8 minutes to a minute or so, and 
so I do think that there--it is promising there.
    So that pilot has been going for a while so I would make 
the assumption that we should be getting--hear something back 
from that assessment.
    Mr. Crenshaw. OK.
    So, I mean, part of this challenge is technology-driven. 
That is why we are doing these kind of pilot programs and the 
other part of that challenge is, you know, the vacancies that 
we have in CBP and then how to address those.
    So I want to expand on that conversation a little bit. In 
my opening statement I talked about what--you know, are asking 
the question, really, what is--what is preventing us from 
hiring more CBP officers?
    Polygraphs are one of them, and, well, maybe you could just 
answer that without me leading you to the answer. But, you 
know, what are your challenges in hiring more CBP officers?
    Mr. Mancha. I think that the--one of the challenges we had, 
and we made a change back in 2015, was that when we started 
doing the CBP vacancy announcements they were geographic-based 
broad-based versus more port-specific.
    So now by changing the way we recruit, port-specific has 
actually brought us a better-qualified pool of applicants.
    So we have been able to make some headway with our 
recruitment efforts. So I think that by the end of this year we 
were only short 107 CPOs in getting--reaching CBP field 
operations up to their authorized staffing levels.
    Mr. Crenshaw. In this regional or Nation-wide?
    Mr. Mancha. That figure is Nation-wide.
    Mr. Crenshaw. OK.
    So then is it inaccurate to say that there is 1,600 
vacancies for CBP officers? What is that 30 18 number?
    Mr. Mancha. I think that part of the--where the confusion 
lies is that you have the on-board and then you have got the 
authorized. Those are appropriated funded positions. Then you 
have the workload staffing model numbers.
    Mr. Crenshaw. OK.
    Mr. Mancha. So there is a gap between that. Now we are 
trying to reach the authorized staffing levels, and when I say 
that we were 107 short I was talking about the authorized 
appropriate positions.
    So now the workload staffing model, which is an analytical 
tool that CBP uses to try to justify the number of vacancies, 
there is still a gap there.
    So when we talk about that, there is a need for more CBP 
officers. That is the gap that we talk about. So that would 
require appropriated funding in order for us to move forward 
and get those additional positions.
    Mr. Crenshaw. OK. OK. That makes a little bit more sense. 
For the funding that you have now you are short about a 
hundred. But the reality is when it comes to the duties that 
you are expected to commit to, you are short 1,600. Is that--
that is more accurate to say? That you need more----
    Mr. Mancha. That is more accurate. We need that--we have 
the----
    Mr. Crenshaw. You would need to somehow hire those people, 
get them on-boarded, and get funded?
    Mr. Mancha. Correct. The staffing levels do not accurately 
represent the changes in the workload we have encountered here 
the last couple of years.
    Mr. Crenshaw. OK. So, again, going back to the challenges, 
though, so whether it is a hundred or 1,600 we are still short. 
By the way, I don't see a timer so you are just going to have 
to cut me off when--throw something at me. Wave at me on my--on 
my blind side.
    [Laughter.]
    Mr. Crenshaw. Where was I? Yes.
    So the challenges, though, I mean, so the recruiting--it 
sounds like you are optimistic about recruiting. So you get 
people interested in becoming a CBP officer.
    But then how is the process? This is what concerns me is 
this process of 300 days and, you know, again, I brought up the 
polygraph because, like, I don't need a polygraph to get a TS/
SCI clearance in the SEAL teams.
    Now, that is pretty amazing but you need one to be a CBP 
officer. You know, and I understand that there is some theories 
behind that.
    But maybe you can speak to that a little bit, you know, the 
necessity of that, whether that makes sense or not and also 
tell me how often do you go through a polygraph once you are 
already on-boarded as a CBP officer?
    Mr. Mancha. So I do think that the polygraph requirement 
came out of the Anti-Border Corruption Act of 2010, and so I 
have noted that we do get better recruitment--a better 
applicant coming in, and I know it is one of the hurdles.
    So we have also have worked on trying to streamline the 
entire hiring cycle. You mentioned 300-plus days. I think that 
has been reduced significantly. So we have made very 
significant improvements in that regard.
    You know, you talk about the need for the polygraph and I 
would tend to agree that there are certain applicants that have 
already been in either--in a law enforcement position, coming 
from the military and so forth, that perhaps would give rise to 
perhaps giving him a waiver of that polygraph requirement.
    But I do find it very beneficial that we do--got to ensure 
that we do have the right people coming into the agency.
    Ms. Torres Small. The gentleman's time has expired.
    Mr. Crenshaw. I am probably out of time.
    Ms. Torres Small. But we can do another round if that 
works.
    We can do another round if that works. OK. Great.
    I want to pick up where my colleague left off in terms of 
staffing because I appreciate you bringing it up. Staffing is 
already a challenge.
    In fact, the numbers that we received from NTEU is actually 
higher--a 3,500 shortage CBP or Customs-wide. So there is 
certainly a need, whether it is a hundred, 1,500, 1,600, or 
3,500.
    Then that comes under even more pressure when we face a 
crisis like the crisis we faced earlier this year, and so I 
just want to check in about the impact that that had on 
operations here.
    Did reassignments affect wait times for passenger and 
commercial vehicles this last year?
    Mr. Mancha. Absolutely. Any time you deploy CBP officers 
there is a significant operational impact to the service that 
we provide at the ports of entry and so especially at a port 
the size of Santa Teresa.
    Any movement of personnel definitely would be--certainly 
will be impacted.
    Ms. Torres Small. Mr. Grajeda, you talked about the short 
wait times being a major selling point for Santa Teresa.
    What impact does staffing shortages have on generating 
revenue and promoting job growth for the State of New Mexico?
    Mr. Grajeda. Well, if we have shorter wait times, you know, 
industry needs to have short wait times in order to be able to 
respond, in order to have a, you know, provide the material 
that they need to ship in a timely manner.
    If they are not able to do that, then they are not going to 
look at investing in this region.
    Obviously, when we are looking at, you know, on the retail 
or tourism side, you know, if people are spending 2 or 3 hours 
at the port of entry that is going to discourage people from 
coming over.
    I mean, in the border region, we depend a lot as well. We 
talked a lot about trade but we also depend a lot on consumers 
from Mexico coming over and buying, shopping at our local 
shops, going to local restaurants.
    If you are spending 2 or 3 hours it is going to discourage 
people from coming over.
    So our region depends on having efficient timely ports of 
entry. You know, this encourages economic development and, to 
the contrary, if we have long wait times it is going to 
discourage economic development in the region.
    Ms. Torres Small. Thank you, Mr. Grajeda.
    Director Mancha, how many additional CBP officers would be 
needed to keep all 4 lanes open at peak--at peak times to 
reduce wait times?
    Mr. Mancha. The workload staffing model projects that the 
total number of CBP officers should be 99. We are currently in 
the mid-80's.
    Ms. Torres Small. OK. Great. Thank you.
    I want to shift just briefly to the hours of operation. 
There has been another change in Santa Teresa's hours earlier 
this year and that included closure at its commercial lanes on 
Saturdays.
    Now, I understand that this is a delicate balance and it 
requires full input from all stakeholders that you can identify 
what is best for the port, what is best for the surrounding 
community as well as all stakeholders involved.
    So in some of the testimony that is going to be submitted 
today, Dell has expressed some concerns with some of those 
changes and I would love to hear a little bit about how those 
decisions were weighed by the port--Santa Teresa port of entry 
to find the solution that you came up with.
    Mr. Mancha. Well, like I mentioned, during the peak of the 
mass migration, which required us to deploy our CBP officers to 
help our brothers and sisters in Border Patrol here required us 
to move some of the staff from Santa Teresa in regards to 
CBPOs.
    So, of course, I talk about--any time there is a movement 
of the CBPOs there is an adverse impact to the service, which 
would be even processing POVs or commercial traffic.
    So realizing that there was an impact, we saw a significant 
increase in wait times. So we need to engage the stakeholders 
to try to come up with some solutions.
    You know, get the stakeholders involved in trying to come 
up with some reasonable alternatives on trying to address the 
situation that we had at hand.
    So it was decided that we would reduce the hours of 
commercial processing on Saturdays and opt for opening earlier 
Monday through Friday another 2 hours, so 6 a.m. to 8 a.m.
    That was a window that was not being utilized, and as a 
consequence, there was a positive result that came out of it is 
that we have seen that during this time that we have opted for 
this change where we were processing around 300 trucks a day, 
that has almost doubled.
    So we are almost seeing 600 trucks coming in Monday through 
Friday. You know, so the 2-hour expansion window Monday through 
Friday, you know, paid off, you know, huge dividends and when 
we compare it to having to shut down operations on Saturdays.
    Ms. Torres Small. In a world with sufficient staff, would 
it be beneficial for Santa Teresa to have extended business 
hours to return to those Saturday operations as well?
    Mr. Mancha. Absolutely. You know, everything is based on 
workload.
    When we--we did make--finally make the decisions of where 
do you cut is we also look at, you know, where is the--your 
peak hours, where do you see the least number of tractors, in 
this case, looking at commercial.
    So in trying to make these decisions, some of those factors 
are weighed in trying to come up with a viable solution.
    Ms. Torres Small. Thank you.
    I yield the remainder of my time and recognize Ranking 
Member Crenshaw for questions.
    Mr. Crenshaw. Thank you, Madam Chairwoman.
    I want to ask about the reimbursable services program and 
then donations acceptance program and how that might be 
utilized. It is a really interesting concept and maybe I will 
direct that to both of you, starting with you, Director Mancha.
    Mr. Mancha. The reimbursable service program is a program 
where a third party can reimburse CBP for enhanced service.
    What I mean is that it is not to supplement. It is to 
enhance. I will give an example. If I normally open X number of 
lanes, I have got to go beyond that and only--we have realized 
that that has been a huge force multiplier for us in trying to 
expand the number of lanes.
    I know that we do have that at the port of El Paso, with 
the city of El Paso, you know, participating. In regards to the 
donations acceptance program, you know, also we have the 
authority to request from third parties donations of real 
property donations and trying to make improvements to the ports 
of entry.
    So I think that that gives CBP ability to be nimble in 
trying to effect some improvements in a rather short period 
amount of time.
    Mr. Crenshaw. Have you been able to take advantage of that 
yet?
    Mr. Mancha. Right now, we are actually working with a 
particular company here at the Port of Santa Teresa and trying 
to make some improvements within the commercial facility that 
would actually help facilitate moving the commodities at the 
port of entry.
    Mr. Crenshaw. Right. Yes, I think we are going to hear from 
them later.
    Mr. Grajeda, does--you know, you talked about the hazmat 
issue before and all these businesses that wish they could 
deliver hazmat goods through the port of entry. I mean, what is 
to stop them from helping out and putting the infrastructure in 
place there themselves?
    I mean, that seems like the flexibility that this kind of 
program provides. Is that--is anybody talking about that?
    Mr. Grajeda. I don't know if the businesses have been 
approached directly. You know, I think that is an opportunity 
that we can look at.
    You know, as far as a State, we want to be a partner in 
getting this up and running. You know, when you are talking 
about the donation acceptance program I think one of the 
benefits is that we can get these--you know, get these 
improvements in a much faster way than having to wait for the 
Federal Government.
    You know, for us it is----
    Mr. Crenshaw. Are you saying we are not fast and efficient?
    [Laughter.]
    Mr. Crenshaw. Is that what you are implying? Just kidding.
    Mr. Grajeda. No.
    [Laughter.]
    Mr. Grajeda. We might be a little bit faster. That is all.
    [Laughter.]
    Mr. Grajeda. But, you know, for us we see it as a small 
investment. It is a relatively small investment for a high 
reward and it also adds to, you know, a layer of safety at the 
port of entry, which we see as beneficial.
    Mr. Crenshaw. This is for both of you, again. How is the 
private sector made aware of these programs?
    Mr. Mancha. We do actually at the monthly trade meetings, 
you know, introduce a program. We have actually had the program 
manager from headquarters come down and actually give 
presentations on these particular programs.
    Mr. Crenshaw. Yes. Is there--at the State level is there--
is there a way to make, you know, chambers of commerce more 
aware of this?
    Mr. Grajeda. I think the port meetings that we have had 
through the trade industry meetings have been--have been really 
helpful. You know, they bring staff from headquarters level to 
talk about the different programs.
    You know, certainly, we can reach out more. We recently 
implement--we renewed our port advisory meetings here at the 
New Mexico Border Authority, which is another venue that we 
plan to take advantage of, talk about these different programs.
    But the trade meetings at the Customs and Border Protection 
hosts have been really effective in getting the word out.
    Mr. Crenshaw. Great.
    Director Mancha, I want to change the subject really quick 
to human trafficking and smuggling and how we can improve 
detection of that horrible crime, what you are seeing.
    Are things improving on that front and does the new 
technology that we have been discussing potentially help with 
that?
    Mr. Mancha. I think that the technology will definitely 
help in terms of a deterrent--address that. But, really, don't 
see too much of the human smuggling occurring at the ports of 
entry. You do see people coming in fraudulently, you know, as 
imposters and so forth.
    But in regards of human trafficking, human smuggling, we 
don't see too many of those cases. So I think that----
    Mr. Crenshaw. Are you saying that that would be between 
ports of entry, not at the points of entry?
    Mr. Mancha. I am not familiar if that is, indeed, what 
Border Patrol is seeing. You know, again, we do see a lot of 
imposters and people trying to come in fraudulently. But that 
wouldn't be in the category of human trafficking.
    Mr. Crenshaw. Right. Right. OK.
    You mentioned some of the NIIs. You see--you see detected 
passengers with some of the technology and so but you are 
saying that is not necessarily human trafficking. That is 
probably just fraudulent----
    Mr. Mancha. Correct.
    Mr. Crenshaw. Right. OK.
    Mr. Mancha. We actually had one--this past week, we had 
somebody actually coming in on a vehicle in the trunk. But it 
is, you know, it is either a relative--somebody trying to bring 
somebody in. You know, that wouldn't be considered as human 
trafficking.
    Mr. Crenshaw. Right.
    Mr. Mancha. You know, they are trying to smuggle them in, 
you know, but and then, of course, you do see folks trying to 
get in with--posing as parents when the kids aren't theirs, and 
so forth.
    Mr. Crenshaw. Right, which would be considered somewhat 
human trafficking. When I talk to Border Patrol they see these 
kind of things all the time.
    So, you know, does the--on the Customs side do you get the 
training that you think you need to be able to detect those 
signs of human trafficking? Because it is not as if these 
people are shackled in the back. That is not how it works. You 
know----
    Ms. Torres Small. This will be the last question. We are 
about a minute over.
    Mr. Crenshaw. OK. Yes, sometimes it is--you know, it is--
there is mental manipulation that occurs or they are posing as 
parents or something else. So, you know, do you think you can 
get the training you need to detect those kind of things?
    Mr. Mancha. We can always use more training. I will never, 
you know, pass on additional training.
    But I do think that a lot of the experience that CBP 
officers have in their line of questioning and their 
operational skills, you know, the review of the documents--all 
those skill sets come into play in trying to determine whether 
this is a legitimate family unit--are these people who they say 
they are.
    So I think that our officers are--do get that experience, 
especially at a port with a lot of volume. But we would never 
bypass additional training.
    Ms. Torres Small. Thank you, Ranking Member Crenshaw.
    Thank you both for being here today and providing your 
testimony. I deeply appreciate it.
    I am now going to welcome our second panel of witnesses and 
thank them for joining us today.
    [Pause.]
    Ms. Torres Small. Thank you both for being here today.
    I will now introduce our next panel of witnesses.
    Our first witness on this panel is Mr. Jerry Pacheco, who 
is the founder and president of the Border Industrial 
Association.
    He has a long and respected career working with 
international trade in our State, establishing New Mexico's 
first foreign trade and tourism office in Mexico City and 
serving as the executive director of the International Business 
Accelerator, the only State-wide international trade counseling 
program.
    Our final witness is Mr. Felipe Otero, the logistics 
manager for TPI Composites. Mr. Otero has a degree in 
mechanical industrial engineering and has worked in procurement 
and logistics for over a decade.
    TPI Composites is the largest U.S.-based independent 
manufacturer of composite wind blades and frequently transports 
these blades through the Santa Teresa port of entry. We saw a 
few today.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his statement for 5 
minutes, beginning with Mr. Pacheco.

   STATEMENT OF JERRY PACHECO, PRESIDENT, BORDER INDUSTRIAL 
                          ASSOCIATION

    Mr. Pacheco. Madam Chairwoman, thank you for the 
invitation. As you mentioned, I am the executive director of 
the International Business Accelerator and I am also the 
president of the local industrial--the Border Industrial 
Association.
    We have more than a hundred members. Most of the businesses 
you see around here are our members. Most are involved in 
manufacturing, warehousing, and distribution.
    We represent about $2 billion in investment--private 
investment here, about 5,000 jobs, and an export base to Mexico 
of about $2 billion.
    Our organization works to improve the business environment 
here and to recruit new industry to this area. So I have been 
involved with the Santa Teresa industrial base for almost 29 
years before the Santa Teresa port of entry was opened in 1993.
    I have seen this base grow from 4 buildings to 4 industrial 
parks that house more than 60 companies. Our little antiquated 
port of entry has grown from a remote obscure facility to the 
fifth most important export port of entry on the entire U.S.-
Mexico border.
    All of this development around us and immediately to the 
north would not be here if the Federal Government had chosen 
not to invest in the port.
    During the past 10 years, New Mexico has, at times, led the 
Nation in export growth percentage. In 2014, New Mexico's 
export growth percentage to Mexico increased by 39 percent. 
That was the highest of any State in the Nation.
    In that same year, the Los Cruces metropolitan statistical 
area, which we are a part of here in Santa Teresa, led all MSAs 
Nation-wide in the export world percentage increase.
    This increase in trade was due to the industrial base that 
we have established here in Santa Teresa to supply production 
inputs to Mexico's manufacturing sector.
    This symbiotic relationship has allowed us to attract 
investment to our region and to create good-paying jobs. Down 
here, we don't view Mexico as a nemesis or a problem. It is a 
neighbor, a partner, and one of the strongest economic 
opportunities that our country has.
    We don't look at the border as a barrier that separates us 
but, rather, a place that brings our 2 countries together, and 
ports of entry are the portals that make that happen.
    Our trade relationship with Mexico helps our companies and, 
ultimately, our country to remain competitive in the global 
market.
    Investing in ports of entry facilitates trade, which 
increases revenue via investment and employment, thus, 
ultimately adding to the coffers of the United States in 
general.
    This is a much wiser investment than a full borderline-long 
wall. Walls are needed where they are needed, in urban areas 
and places where illegal crossers can quickly blend into the 
general population.
    However, as we know, the immigrant crisis that we are 
currently experiencing doesn't have primarily to do with 
illegal crossers scaling walls or trying to cross in the desert 
where there is no barriers.
    Rather, the crisis is occurring in our ports--at our ports 
of entry where migrants come to surrender themselves in hope of 
being granted asylum.
    When large waves of immigrants approach a port of entry, 
the port director has the discretion to shut the facility down 
for security reasons.
    All the ports of entry don't typically stay closed down for 
very long. Any closures will result in traffic piling up on 
both sides of the border.
    This is highly disruptive to the flow of people and cargo, 
causing inefficiencies and a drop in productivity for companies 
on a tight supply chain.
    Congress must address amnesty laws to prevent future 
migrant crises such as the one we are currently experiencing. 
Waves approaching ports of entry cause major problems.
    Asylum seekers have to be taken into custody, documented, 
physically examined by medics, fed, and housed at the ports 
until a more appropriate space is found to keep them until 
their hearing.
    This takes CBP officers out of their posts to perform these 
functions, resulting in commercial lanes being shut down, thus 
causing long lines, delays, and a discouragement of investment, 
which is really important to us here.
    Even more important than infrastructure is the human 
element, as we were discussing here, namely, the CBP officers 
that protect the United States and who are also an integral 
element in the United States' trade with countries such as 
Mexico.
    There is a gap between the number of CBP officers needed 
and how many are actually being recruited. We actually have a 
559 program pending in place here to pay for overtime of 
officers.
    But that is irrelevant to us because if they don't have 
sufficient officers, we can't pay them overtime. So to extend 
the port hours it is kind of a Catch-22.
    So when a CBP prospect is recruited, he or she will have to 
go through extensive training period. After this is over, an 
agent will still need to shadow an experienced CBP officer for 
at least a year, after which the new CBP officer will finally 
be available to fully functional--be fully functional in his or 
her position.
    Depending on the traffic, strategic importance, or the 
need, new CBP officers are then assigned to a particular port 
of entry. It takes time to get these people hired and to get 
them functional.
    Congress must appropriate the necessary funding to recruit 
and hire more CBP officers. This human element must not be 
overlooked. We are talking infrastructure but this is probably 
the most important thing.
    Our ability to keep our trade with the world growing rests 
on the backs of these individuals. It would be foolish to skimp 
in this area and create bottlenecks that are within our power 
to prevent.
    Creating modern secure ports of entry also provide security 
in times of crises. Investing in existing ports of entry and 
personnel and that will allow trade between the United States 
and Mexico is a wise and lucrative investment for our country.
    For every dollar the Federal Government invests in port 
infrastructure and CBP agents a multiplier effect is created, 
benefiting the entire U.S. economy.
    Mexico is our third most important trading partner and 
working with our neighbor to modernize ports of entry with new 
infrastructure, including the latest equipment and technology, 
creates economic development opportunities not only for us but 
south of the border, which allows Mexican citizens the ability 
to provide for their families, thus curbing the illegal 
immigration.
    Madam Chair, Ranking Member, in conclusion, I urge this 
committee to consider the opportunities that investing in port 
infrastructure and personnel will bring to our Nation and 
southern partner, and the negative ramifications on trade 
security by not doing so.
    Thank you for allowing me to share my thoughts with you.
    [The prepared statement of Mr. Pacheco follows:]
                  Prepared Statement of Jerry Pacheco
                            December 2, 2019
    Madam Chairwoman and Members of the committee: Thank you for 
inviting me here today to talk about border infrastructure and its 
effect on trade and security. I am the president of the Border 
Industrial Association, which represents the Santa Teresa industrial 
base within which we are meeting today. Our association has more than 
100 members, most of whom are involved in manufacturing, warehousing, 
and distribution. We represent more than $2 billion in investment, 
5,000 jobs, and an export base to Mexico of nearly $2 billion.
    I have been involved with the Santa Teresa Industrial base for 
almost 29 years, before the Santa Teresa Port of Entry was opened in 
1993. I have seen this base grow from 4 buildings to 4 industrial parks 
that house more than 60 companies. Our little, antiquated port of entry 
has grown from a remote, obscure facility to the fifth most important 
export port of entry on the entire U.S.-Mexico border. Last year, we 
surpassed Brownsville and Nogales for this place on the list.
    The Santa Teresa Port of Entry is the mouse that roared. All of 
this development around us and immediately to the north would not be 
here if the Federal Government had chosen not to invest in the port. 
Yet since establishment, very few major improvements have been made to 
the port, while at the same time our trade and crossings have continued 
to grow. During the past 10 years, New Mexico has at times led the 
Nation in export growth percentage. In 2014, New Mexico's exports 
growth percentage to Mexico increased by 39 percent, the highest of any 
State in the Nation. In that same year, the Las Cruces Metropolitan 
Statistical Area, with the city of Las Cruces 50 miles north of here, 
led all MSAs Nation-wide in the export growth percentage increase. This 
increase in trade was not due to the city of Las Cruces, which has 
100,000 people and is the largest city in Dona Ana County, but because 
of the industrial base that we have built here in Santa Teresa to 
supply production inputs to Mexico's manufacturing sector. This 
symbiotic relationship has allowed us to attract investment to our 
region and to create good-paying jobs.
    Down here, we don't view Mexico as a nemesis or a problem. It is a 
neighbor, partner, and one of the strongest economic opportunities that 
our country has. We don't look at the border as a barrier that 
separates us, but rather a place that brings our 2 countries together--
and ports of entry are the portals that make this happen. Our trade 
relationship with Mexico helps our companies, and ultimately our 
country, to remain competitive in the global market.
    Investing in ports of entry facilitates trade, which increases 
revenues via investment and employment, thus ultimately adding to the 
coffers of the United States in general. This is a much wiser 
investment than a border-long wall. A wall is needed where a wall is 
needed, particularly urban areas and places where illegal crossers can 
quickly blend into the general population. However, the immigrant 
crisis that we are experiencing doesn't have to do with illegal 
crossers scaling walls or trying to cross in the desert where there are 
no barriers, rather the crisis is occurring at our ports of entry where 
migrants come to surrender themselves in hope of being granted amnesty.
    When large waves of immigrants approach a port of entry, the port 
director has the discretion to shut the facility down for security 
reasons, and to protect his/her personnel. There have been incidents of 
immigrants aggressively storming ports of entry and several Customs and 
Border Patrol (CBP) officers have been injured. Although ports of entry 
don't typically stay closed down for very long, any closures will 
result in traffic piling up on both sides of the border. This is highly 
disruptive to the flow of people and cargo, causing inefficiencies and 
a drop in productivity for companies on a tight supply chain.
    In this sense, Congress must focus on modifying amnesty laws to 
prevent future migrant crises such as the one we are currently 
experiencing. Currently, all migrants have to do is reach U.S. soil and 
ask for amnesty. Even though the waves of migrants have decreased, any 
subsequent wave approaching ports of entry can cause major problems. 
Asylum seekers have to be taken into custody, documented, physically 
examined by medics, fed, and housed at the ports until a more 
appropriate space is found to keep them until their hearing. This takes 
CBP officers out of their posts to perform these functions, resulting 
in commercial lanes being shut down, thus causing long lines, delays, 
and a discouragement of investment.
    I have always touted the case for modernizing the infrastructure at 
the ports. However, even more important is the human element, namely 
CBP officers that protect the United States from drugs and contraband, 
and who are also an integral element in the United States' trade with 
countries such as Mexico. There is a gap between the number of CBP 
officers needed and how many are actually being recruited. Many ports 
of entry are understaffed, and crossing lanes that could be used to 
process people and commerce are closed because there are simply not 
enough CBP officers to attend to them. We estimate in Santa Teresa 
alone, our port is understaffed by approximately 30 CBP officers.
    And it is not as simple as saying that all the U.S. Government has 
to do is hire more people.
    When a CBP prospect is recruited, he/she will have to go through an 
extensive training period. After this is over, an agent will still need 
to shadow an experienced CBP officer for at least 1 year, after which 
the new CBP officer will finally be available to be fully functional in 
his/her position. Depending on the traffic, strategic importance, and 
need, new CBP officers are then assigned to a particular port of entry. 
In other words, it takes quite a bit of time to recruit, train, and 
position CBP agents. It is not simply a case of hiring them and putting 
them directly on the line. Furthermore, many young people entering the 
workforce, who could be recruits, are not interested in a job that 
involves stress, sometimes dark human elements, and often long hours.
    This particular holiday season, which we at the border call the 
``Paisano Season,'' will test the limits of the infrastructure at our 
ports of entry and the CBP officers who are trained to keep the United 
States safe from illegal elements, as millions of people travel back 
and forth across the border to be with their families. The Executive 
branch of Government and Congress must work together to appropriate the 
necessary funding to recruit and hire more CBP officers. This human 
element must not be overlooked. Our ability to keep our trade with the 
world growing rests on the backs of these individuals. It would be 
foolish to skimp in this area and create bottlenecks that are within 
our power to prevent.
    Creating modern, secure ports of entry also provides security in 
times of crises. However, investing in port infrastructure has to be 
congruent on both sides of the border. Neither side can simply choose 
to invest in port infrastructure without coordinating with the other 
side. Approximately 50 miles east of here lies the Port of Tornillo, 
where the Federal Government rushed to invest $133 million in a modern 
port of entry only to discover that Mexico was unwilling to also invest 
in road and infrastructure improvements on its side of the border. How 
we could have used that investment here where the Santa Teresa Port of 
Entry is busting at the seams--investing in existing ports of entry 
that allow trade between the United States and Mexico are a solid and 
lucrative investment for our country.
    For every dollar the Federal Government invests in port 
infrastructure and CBP agents, a multiplier effect in which a huge 
``bang for the buck'' is created, benefiting not only border 
communities, but the entire U.S. economy. Mexico is our third most 
important trading partner, and working with our southern neighbor to 
modernize ports of entry with new infrastructure, including the latest 
equipment and technology, creates economic development opportunities 
south of the border, which allows Mexican citizens the ability to 
provide for their families, thus curbing illegal immigration.
    In conclusion, I urge this committee to consider the opportunities 
that investing in port infrastructure and personnel will bring to our 
Nation and southern partner, and the negative ramifications on trade 
security by not doing so. Madam Chairwoman, I thank you and the Members 
of the committee for the opportunity to provide you with my thoughts.

    Ms. Torres Small. Thank you, Mr. Pacheco, for your 
testimony.
    I now recognize Mr. Otero to summarize his statement for 5 
minutes.

  STATEMENT OF FELIPE OTERO, LOGISTICS MANAGER, TPI COMPOSITES

    Mr. Otero. Chairwoman Torres Small and distinguished 
Members of the subcommittee, thank you for the opportunity to 
testify before you today to discuss promoting safe and 
efficient travel and trade at America's land ports of entry.
    I currently serve as a logistics manager for TPI Composites 
and am responsible for the delivering of our products to our 
customers on a daily basis.
    TPI is the largest U.S.-based independent manufacturer of 
composite wind blades in the industry and it was founded more 
than 50 years ago. We are currently leading the wind blade 
manufacturing industry in all of North America, Europe, and 
Asia.
    Our advanced composites manufacturing technology allows us 
to build near-aerospace grade parts at industrial prices. TPI's 
presence in our southern border city, Juarez, Mexico, represent 
about 45 percent of our global presence with four facilities 
that export about 95 percent of our product to the United 
States.
    With such a large portion of our business occurring in TPI 
Juarez, this project has become a key figure for TPI's future 
growth.
    Our designated port of entry to the United States for our 
oversized loads is Santa Teresa, New Mexico, because it has 
unique characteristics that make it perfect for our very 
complicated-to-transport product.
    Unfortunately, the port's current infrastructure can 
accommodate up to our 65-meter blade only. As our blades 
increase in size, so are logistics challenges.
    Recently, we are building our 72-meter blade--262 feet--
which the port cannot accommodate. We are expecting this blade 
to be shipped to the United States in March 2020.
    In the last 2 years, we increased our yearly production 
rate 26 percent. In 2019, our weekly shipments through Santa 
Teresa averaged 40 blades per week.
    In 2020, our volume will continue to increase and we will 
reach 50 blades on average per week. Twelve of those 50 weekly 
blades will be 72 meters long.
    Back in September of this year, we were presented the 
donations acceptance program as an alternative to have the port 
of entry redesigned as our product required.
    After a site visit, we assessed the different obstacles 
that were affecting the safe transit of our product and, since 
then, we have collaborated with CBP on developing the 
modifications as the donations acceptance program calls.
    These modifications are, first, expansion of the port of 
entry fence line, increasing its opening from 28 to 35 feet 
long. By expanding the fence line, the tip swing of the blade 
will clear this obstacle without hitting it.
    Second, we will smooth out the entrance curve by pouring 
30,000 square feet of concrete to extend the curve.
    The third and last obstacle is a light pole that we will 
relocate to the left side of the lane where, once again, the 
tip of the blade will hit.
    The expansion of the port of Santa Teresa will impact 
directly the economic growth of the region as commerce is 
directly tied to the resources that both the port and the 
region receive.
    This will allow the port to handle a much larger load, 
making Santa Teresa a much more attractive port of entry for 
oversized carriers, once again, bringing more commerce to the 
region.
    As our product gets larger, so will the price tag on each 
blade, making each piece that crosses through that port much 
more important for the region.
    The economic growth will be directly tied to the benefits 
to the community. As the region becomes more fruitful, so will 
the benefits and resources that will be allocated in Santa 
Teresa and this entire region of New Mexico.
    Thank you for holding this hearing today and I look forward 
to hearing any of your questions.
    [The prepared statement of Mr. Otero follows:]
                   Prepared Statement of Felipe Otero
                            December 2, 2019
    Chairwoman Torres Small and distinguished Members of the 
subcommittee, thank you for the opportunity to testify before you today 
to discuss Promoting Safe and Efficient Travel and Trade at America's 
Land Ports of Entry.
    I currently serve as the logistics manager for TPI Composites and 
am responsible for delivering our products to our customers on daily 
basis.
    TPI is the largest U.S.-based independent manufacturer of composite 
wind blades in the industry and it was founded more than 50 years ago. 
We are currently leading the Wind Blade Manufacturing industry in all 
North America, Europe, and Asia.
    Our advanced composites manufacturing technology allows us to build 
near-aerospace grade parts at industrial prices. TPI's presence in our 
Southern Border city, Juarez, Mexico, represent about 45 percent of our 
global presence with 4 facilities that export about 95 percent of our 
product to the United States. With such a large portion of our business 
occurring in TPI Juarez, this project has become a key figure for TPI's 
future growth.
    Our designated Port of Entry to the United States for our oversized 
loads is in Santa Teresa, NM because it has unique characteristics that 
make it perfect for our very complicated-to-transport product. 
Unfortunately, the Port's current infrastructure can accommodate up to 
our 65-meter blade only. As our blades increase in size, so our 
logistics challenges. Presently we are building our 72-meter blade (262 
ft.), which the Port cannot accommodate. We are expecting this blade to 
shipped to the United States in March 2020.
    In the last 2 years we increased our yearly production rate 26 
percent. In 2019 our weekly shipments through Santa Teresa averaged 40 
blades per week. In 2020 our volume will continue to increase and we 
will reach 50 blades on average per week. Twelve of those 50 weekly 
blades will be 72 meters long.
    Back in September of this year we were presented the Donations 
Acceptance program as an alternative to have the POE redesigned as our 
product required. After a site visit, we assessed the different 
obstacles that were affecting the safe transit of our product and since 
then we have collaborated with CBP on developing the modifications as 
the Donations Acceptance Program calls.
    These modifications are:
    a. First, Expansion of the POE fence line, increasing its opening 
        from 28 to 35 ft long (Fig. 1). By expanding the fence line, 
        the tip swing of the blade will clear this obstacle without 
        hitting it.
    b. Second, we will smooth out the entrance curve by pouring 30,000 
        square feet of concrete to extend the curve.
    c. The third and last obstacle is a light pole that we will 
        relocate to the left side of the lane where once again, the tip 
        of the blade will hit.
    The expansion of the Port of Santa Teresa will impact directly the 
economic growth for the region, as commerce is directly tied to the 
resources that both the port and the region receive, this will allow 
the port to handle a much larger load, making Santa Teresa a much more 
attractive POE for oversized carriers, once again bringing more 
commerce to the region.
    As our product gets larger, so will the price tag on each blade, 
making each piece that crosses through that port much more important 
for the region. The economic growth will be directly tied to the 
benefits to the community, as the region becomes more fruitful so will 
the benefits and resources that will be allocated in Santa Teresa, and 
this entire region of New Mexico.
    Thank you for holding this hearing today and I look forward to 
hearing any questions you may have.
           ATTACHMENT.--TPI COMPOSITES--Port of Santa Teresa
Presented to Homeland Security
                 1. brief description of tpi composites
    TPI was founded in the United States more than 50 years ago, today. 
We are currently leading the Wind Blade Manufacturing industry in all 
of North America, Europe, and Asia, in fact we are the largest U.S.-
based independent manufacturer of composite wind blades in the 
industry.
    Our advanced composites manufacturing technology allows us to build 
near-aerospace grade parts at industrial prices.
    TPI's Juarez operations represent about 45 percent of our global 
presence with 4 facilities that export about 95 percent of our product 
to the United States. With such a large portion of our business 
occurring in TPI Juarez, this project has become a key figure for TPI's 
future growth.
                                2. scope
    Our designated Port of Entry to the United States for our oversized 
loads is in Santa Teresa, NM. Currently the infrastructure can 
accommodate up to our 65-meter blade. We are currently building our 72-
meter blade (262 ft.), which the current Port cannot accommodate, we 
are expecting this blade to shipped to the United States in March 2020.
    To illustrate the magnitude of our product, we present the slide 
below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Our 2020 volume increases from our current 43 in average per week 
to 46 blades on weekly basis. Nine of those 46 weekly blades will be 72 
meters long.
                                 3. dap
    Back in September of this year we were presented the Donations 
Acceptance program as an alternative to have the POE redesigned as our 
product required. After a site visit, we assessed the different 
obstacles that were affecting the safe transit of our product and since 
then we have collaborated with CBP on developing the modifications as 
the DAP calls.
    These modifications are:
    a. The first area that needs to be modified is the POE entrance 
        gate, expanding it from 28 to 35 (Fig. 1). By expanding the 
        fence line, the tip swing of the blade will clear this obstacle 
        without hitting it. This modification will also allow a faster 
        processing time.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    b. Immediately after entering the U.S. premises, which is currently 
        the only pathway for oversized loads, the cargo lane curves to 
        the left, forcing the Blade tip to swing out and hit the fence. 
        (Fig. 2)
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    c. The third and last obstacle is a light pole to the left side of 
        the lane where once again, the tip of the blade will hit. (Fig. 
        3)
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                             4. conclusion
    The expansion of the Port of Santa Teresa will impact directly the 
economic growth for the region, as commerce is directly tied to the 
resources that a both the port and the region receive, this will allows 
the port to handle a much larger load, making Santa Teresa a much more 
attractive POE for oversized carriers, once again bringing more 
commerce to the region.
    The economic growth will be directly tied to the benefits to the 
community, as the region becomes more fruitful so will the benefits and 
resources that will be allocated in Santa Teresa, and this entire 
region of New Mexico.

    Ms. Torres Small. Thank you for your testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel and I will now recognize myself 
for questions.
    So we had a robust discussion about the RSP agreements, 
which are public-private partnerships that can be used as ports 
of--with ports of entry to expand infrastructure and other 
investments.
    Mr. Pacheco, do you see public-private partnerships as a 
sustainable solution to CBP's staffing and infrastructure 
shortages and, if so, what is the right balance between public-
private investments and Federal funding?
    Mr. Pacheco. Madam Chair, I do. I think it is one of the 
best things occurred where you can have a company like TPI or, 
in our case over here at the port of entry, Dell Computers, 
which is they are being manufactured at Foxconn just south of 
the border, participating in those type of programs.
    However, there is a bit of push back by the private sector 
that say, well, we pay or taxes--why isn't the Federal 
Government, why isn't the State government the entities that 
are--that are pitching in to do this?
    There is a balance there. I am not quite sure what it is. I 
think both sides, the public sector and the private sector, 
need to have skin in the game and that is definitely the case 
here at Santa Teresa.
    Again, we have been working on the extension of port hours 
for the better part of 15 years. Gone to Washington several 
times.
    We have succeeded in extending the port hours, which closed 
at 6 o'clock at night for the commercial. We extended that to 
8, which was a major thing we had to jump through hoops on.
    So the 559 program, these type of programs, allow us to get 
there much more quickly. The problem is, again, it is a Catch-
22 because how can you pay personnel that don't exist overtime, 
and that is where we are right now.
    Ms. Torres Small. I appreciate you bringing that up. I 
think it is a resounding theme that we have seen in terms of 
staff shortages.
    Earlier this year, I held a hearing in the subcommittee on 
retention and recruitment for CBP officers as well as Border 
Patrol agents.
    Going to that staff shortage, can you also just explain the 
impact that the decreasing in staffing at the port has affected 
our flow of commerce?
    Mr. Pacheco. Madam Chair, it--we went through this past 
year and I have to commend the CBP personnel because they bent 
over backward to keep the trade--the flow of trade going.
    But I guess the question I always ask is how much more 
could we have done, you know, because it does affect--when CBP 
has to close a lane in the cargo area and all of a sudden you 
are down to one lane or they have to shut the port down 
because, you know, there is an emergency or there is a wave of 
immigrants coming or what have you.
    It really does disrupt our flow of traffic. I have even 
talked to some people across the border and some people here 
that say they are reluctant in terms of investing more money 
because unless we get these issues settled, you can imagine and 
appreciate.
    Dell Computer is on a tight supply chain. You order a Dell 
computer, it has got to be at your house in a certain amount of 
time.
    They plan by the minute, and so if we are having these 
disruptions at the port of entry because of lack of CBP 
personnel or what have you, it really begs the question what 
more could we have done----
    Ms. Torres Small. So we----
    Mr. Pacheco [continuing]. And where could we have gone in 
terms of attracting more investment.
    Ms. Torres Small. Thank you, Mr. Pacheco.
    We have received testimony for this hearing submitted 
noting that one company will be--plans to or may have to divert 
some of its shipments, a large portion of its imports, to 
another port. Have you heard of any other companies that may be 
having to make these changes based on the insufficient hours?
    Mr. Pacheco. Madam Chair, I think we are probably referring 
to the same company. I have heard mostly concern. But that is--
that is not good because we want to provide an environment 
within our control where commerce can be expanded.
    We are all about expanding this industrial base. I mean, we 
can create new jobs. We can create new investment. It, 
ultimately, benefits the State, the region, and our country.
    If we cannot solve these issues with understaffed ports of 
entry, with insufficient infrastructure--we opened this port of 
entry originally across the street in 1993 and then the new 
port of entry in about 1998 and we have had a couple of minor 
injections of infrastructure funding.
    But this little tiny port of entry, I mean, if you compare 
it to Nogales, which, oh my God, that is the Taj Mahal of ports 
of entry at Mariposa, and we are doing more than Nogales.
    We are going to hit a point here very quickly that there is 
no more that you can push through this port of entry because of 
the infrastructure and because of the CBP personnel.
    Ms. Torres Small. Thank you, Mr. Pacheco.
    Mr. Otero, can you speak to the impacts that you all 
suffered due to the increased wait times earlier this year 
before they were brought down more recently?
    Mr. Otero. Sure. The impact that it had on TPI's sales was 
tremendous. Normally, we take advantage of our transportation 
equipment and we do 2 rounds a day for all of our blades since 
it is limited capacity--our trucking--and during those months 
we were only able to do 1 round per day.
    So, of course, the impact of that in our Juarez operation 
there is not enough space for such a large product to be stored 
in our facilities.
    There is very limited space in our yards and that was 
critical for not just TPI but also our customers so that we are 
genuinely concerned about that.
    Ms. Torres Small. Thank you, Mr. Otero.
    My time has expired. I now recognize Ranking Member 
Crenshaw for 5 minutes of questions.
    Mr. Crenshaw. Thank you. Thank you all for being here 
again.
    Mr. Pacheco, thanks for just continuing along that same 
line of questioning. Do you ever have a--do you have a estimate 
on a dollar amount of, say, lost investment or costs due to 
inefficient port of entry operations?
    Mr. Pacheco. Madam Chair, Congressman Crenshaw, that is a 
very difficult thing to estimate. But I can tell you we have 
had companies spooked that we--you know, we did all the 
pipeline of prospects that we are trying to recruit, and if 
they don't come we always note why they didn't come and there 
are some that have cited to me the uncertainty of what is going 
on at the ports of entry, the migrant crisis, what have you.
    I would estimate we probably would have gotten closer on 2 
to 3 deals and most of our deals are within the $15 million to 
$30 million to $50 million range. So if that gives you an idea.
    Mr. Crenshaw. Is that uncertainty--is that just due to 
border operations? Is that also--is that the USMCA and the 
uncertainty surrounding that?
    Mr. Pacheco. Madam Chair, Congressman, all of that. I can 
tell you with certainty there were 3 deals that we were looking 
at in 2018 last year--2017, 2018--that got spooked.
    We didn't--we lost 2 of the deals. One went to El Paso, 
Texas, which is good. It is for our region. I mean, at least it 
landed here.
    But they would have built a building had the USMCA been a 
little more certain and what have you. That spooked them away. 
We lost that investment. We lost that physical investment in 
our industrial base because of that, and that was a pretty 
healthy deal. That was about a hundred jobs.
    Mr. Crenshaw. You mentioned the migrant crisis, too. I 
mean, you know, it is not as if that has gone away, of course. 
It is just we have fewer numbers than we did in the spring 
time. Those were absolute crisis numbers.
    But the--you know, the problem still persists and you 
brought this up, the issue of amnesty and closing those 
loopholes and how that affects industry and commerce and 
certainty.
    So would you care to expand on that a little bit and what 
does the business community feel is the right way to handle 
these massive amnesty claims?
    Mr. Pacheco. Well, Madam Chair, Congressman Crenshaw, let 
me preface this by saying I honestly feel for these families 
coming up here. I mean, if you are down here you develop a lot 
of empathy for people that are desperate like that.
    It does affect us, as I have testified. It does affect us, 
and the irony is, is that asylum seekers just have to set foot 
on U.S. soil to ask for asylum.
    Well, you know, if you know anything about the border, the 
border wall is built on our side of the border. So, you know, I 
mean, it is a little incongruent in that sense.
    But I think Congress needs to look at how we treat amnesty 
cases, how they are processed, because I think maybe we created 
this whole crisis ourselves.
    Mr. Crenshaw. Right. Would you agree that those cases need 
to be adjudicated quickly and decided quickly so as to not 
create this incentive of catch and release where all they 
have--like you said, all they have to do is show up and set 
foot on our border and then they are caught and released?
    Mr. Pacheco. Yes. Madam Chair, Congressman Crenshaw, yes, I 
believe that because if you go to the other side of the border 
there is people waiting months there in shanty towns--shacks 
and tents.
    You can go to Chamizal Park and see people out on the 
coldest day of the year there waiting to get their turn to 
come.
    So yes, I mean, quickly and fairly.
    Mr. Crenshaw. So bring it back to the donation program and, 
you know, again, coming from the business community, is that 
program well-known?
    Is there talk of creative ways to improve upon all of the 
issues and infrastructure that we see and using this donation 
program to do so?
    Mr. Pacheco. Madam Chair, Congressman Crenshaw, I think it 
is pretty well-known. I mean, we are a very tight industrial 
base. We have a very active private sector.
    Our Border Industrial Association serves as the Chamber of 
Commerce and sometimes it serves as, like, the local 
municipality because we are not in an incorporated municipality 
here.
    We worked very hard several years ago to put the 559 
agreement together with Customs. We were getting the State to 
participate. We got Dell Computers to throw in--because we 
needed $450,000.
    Dell was willing to throw in--I think it was $200,000. We 
were going to get $250,000 out of the State. It didn't work out 
in that particular legislative session.
    Then the wheels started rolling where you had the 
reassignment of CBP personnel and at that point--I mean, it was 
irrelevant. You cannot pay people that are not there.
    Mr. Crenshaw. Yes. Yes. That is a problem that we are still 
trying to fix.
    I am assuming I am out of time?
    Ms. Torres Small. Yes, though we have got time for another 
round if you are good for that.
    Mr. Crenshaw. OK. OK.
    Ms. Torres Small. All right.
    So just, quickly, Mr. Pacheco, will you speak to what you 
see as the largest infrastructure needs for the Santa Teresa 
port of entry?
    Mr. Pacheco. Madam Chair, we always have a motto and our 
motto is you have to keep infrastructure ahead of development. 
The day you can't flush your toilets the day you are not 
recruiting a new company. OK.
    So sometimes I think we got caught up in, OK, we need more 
water, waste water. We need higher or expanded electricity, 
what have you.
    But we have to take a step back and realize that none of us 
would be here today and we would probably still have 4 
businesses as I saw 29 years ago if it weren't for this port of 
entry. This port of entry is the mouse that roared. It is the 
little engine that could.
    I went to Nogales to benchmark what they are doing out 
there. I have got a buddy that runs their port authority, and 
he took me on a tour of the port of entry.
    It is just--if you have never been to the Mariposa port of 
entry you got to go. He wanted to reciprocate and come back 
here and I didn't want him to come see our port of entry over 
here.
    But we are doing more volume. So the port of entry itself, 
investing in the infrastructure, it has to be redesigned. 
Personnel has to be considered here.
    But if you can see we have been successful in working with 
the State with Federal funding, doing all of our roads here in 
concrete. It is a beautiful, you know, situation we have.
    But that port of entry is rapidly going to be our 
bottleneck, going forward. So that is the most important piece 
of the puzzle.
    Ms. Torres Small. Thank you.
    Mr. Otero, you testified about the importance of the 
public-private partnership that you are entering into with CBP.
    Can you speak specifically to how the timing of that 
project is essential for your planning needs as a business?
    Mr. Otero. Yes. It has to be done and we were presented by 
our local authorities, CBP here, back in September to that--the 
donations acceptance program, and they are very helpful.
    It is actually a key element for our business to continue 
here in this region and it is moving, not at the speed we would 
like to, of course.
    It is a genuine concern from our customer that is 
specifically requesting bigger blades ASAP and it is only 
alternative at this point.
    Ms. Torres Small. That is helpful, and in terms of the 
spring deadline what happens if that isn't done then?
    Mr. Otero. We will start accumulating product in our sister 
city in southern Juarez.
    Ms. Torres Small. OK. Thank you.
    Mr. Pacheco, do you believe that this project will help 
traffic flow in a more efficient manner and will help attract 
other businesses?
    Mr. Pacheco. Madam Chair, definitely. We have always had an 
arrow in our quiver of where we say that locate the Santa 
Teresa, you are going to locate right near us the district's 
fastest-crossing port of entry.
    The minute that we can't say that, the minute we lose our 
advantage out here. If you look, we have built an industrial 
base out of sand in the desert here, essentially, right? I 
mean, technically, should this even be here?
    We are not here--we are here because of the port of entry 
and these type of programs are necessary and I think we have 
support at the State level where we could bring the State 
support to bear to pull some of these projects off.
    But the redesign of the port of entry and the investment of 
funds, again, I sound like a broken record but that is the 
message I want to get across today.
    Investment in infrastructure, investment in personnel--you 
do that. We, in the private sector, will take it from there and 
we will create those jobs and that economic development.
    Ms. Torres Small. Thank you.
    Mr. Pacheco, you spoke to how businesses can get spooked by 
uncertainty and so I do just want to briefly ask how you feel 
the passage of USMCA would help address that.
    Mr. Pacheco. Madam Chair, it is--how do you say, essential, 
critical, paramount. You have to realize we have businesses.
    We did a deal 4 years ago--it was a hundred million 
dollars--a Turkish company that is doing copper wire here. They 
do about 7 million pounds of copper wire a month, if you can 
imagine how much that is.
    They invested a lot of money and I don't think we, as a 
Nation, can pull the rug out from companies that invested here 
predicated on some type of an agreement in North America, 
whether it be NAFTA or USMCA, right.
    I would not be able to face them for having attracted them 
and recruited them here, to have their investment be, you know, 
in limbo.
    So the passage of the USMCA is critical and I hope that it 
can come up very quickly and hope we can put that to bed--that 
issue to bed because the quicker we can, the quicker we can 
recruit companies and the quicker companies that are existing 
here will expand and start investing more money in their 
operations.
    Ms. Torres Small. Thank you, Mr. Pacheco.
    My time has expired. I recognize my colleague, Ranking 
Member Dan Crenshaw, for questions.
    Mr. Crenshaw. Thank you, Madam Chair.
    Mr. Otero, I will go to you, and I just want to get your 
general sense of the donation acceptance program--how you found 
out about it, how you chose to do it, and what improvements 
could be made to it.
    Mr. Otero. Definitely probably be getting people to know or 
private sectors to know about that. If it wasn't for or a very 
close relationship with the local authorities, probably TPI 
would not have found out about that specific program.
    That is probably one of my recommendations that it should 
be well-known. It should be spread out, and like I mentioned, 
it is our only alternative right now to continue our business.
    Unfortunately for us, our technology, it is demanding 
more--the bigger, the more--the more efficient. So that is what 
our customers need and that is where the environment needs.
    So it won't stop here. Seventy-two meters long, it is not 
the biggest. It will continue to grow. But it is a genuine 
concern from our customers--can you guys do it through Santa 
Teresa, or do we have to find different routes?
    Mr. Crenshaw. Is the--does the delay and passage of the 
USMCA affect you all's business at all?
    Mr. Otero. At this point, it hasn't, because we are going 
to start shipping this product in March 2020. But it will 
definitely affect.
    Mr. Crenshaw. You said it will eventually?
    Mr. Otero. It will. It will, if we don't get this--
clearances. It is a very formal process that the donation 
acceptance program calls that we have to follow those----
    Mr. Crenshaw. Is it too stringent? I mean, could it--could 
that process be made more flexible? Is that maybe why--as far 
as I understand it, you are the only company that is actually 
using it.
    Maybe--or I guess we mentioned Dell earlier, but very few 
companies are using it. You know, I wonder what the reason is 
for that. Is it because it is not that flexible?
    Mr. Otero. I guess. There is very few personnel in 
headquarters that actually have to authorize what we have 
presented or there is very key players that have to approve 
that that I have not got a response.
    Mr. Crenshaw. OK. So saying the staffing maybe isn't 
adequate to actually process the applications?
    Mr. Otero. Probably, sir. Yes.
    Mr. Crenshaw. OK. Mr. Pacheco, I will go to you on some of 
those--some of those same question and how it can be improved 
and what you are seeing.
    Mr. Pacheco. Sure. Madam Chair, Congressman Crenshaw, I 
would not say that when we put the 559 agreement in place with 
CBP that it was a bad experience.
    They were very helpful. We found ourselves behind the 8-
ball several times by being slow on our side to get, you know, 
everything--you know, signed and what have you.
    So I don't think that is it.
    Mr. Crenshaw. OK.
    Mr. Pacheco. Again, the biggest feedback I have gotten from 
companies that you would think would logically want to 
participate in those programs is why should I do that if the 
Federal Government I pay taxes--you know, my company is, you 
know, whatever. That is the biggest push-back that I get.
    Mr. Crenshaw. OK. You just have them call my office. I will 
explain to them why.
    [Laughter.]
    Mr. Crenshaw. The last question I want to ask both of you, 
so we have talked about infrastructure improvements but we have 
been a little bit general with our--with our language.
    We have, obviously, identified the need for more personnel. 
That is a very obvious one and, unfortunately, it is not as 
easy as just saying, hey, we will authorize more money for it, 
because that is not the problem.
    The problem is actually getting people through the process. 
You know, we have the authorization for the funding and it is--
we are still short.
    So what else? I mean, specifically, is it more lanes? Is it 
the technology? Do you find this--the drive-thru NII technology 
promising?
    The stuff that we are piloting in Texas? Is that what is--
is that what is required? You know, what is it going to be?
    Mr. Pacheco. Madam Chair, Congressman Crenshaw, if you look 
at successful ports of entry, it is a combination of all that 
you mentioned. It is not just the lanes, OK. It is not just the 
personnel. It is the technology.
    When this port of entry was opened back in 1993, we were 
the designated pilot port for new technology and, ironically, 
we were the designated port of entry for hazmat in this region 
and I think that is one of the ways that the port got opened 
way back when, when Senators Domenici and Bingaman were working 
on this project.
    It is a combination of all of that. The hazmat is really 
important. I can--I can list deals over the years, the last 20 
years, that we have lost because the firm could not move 
product in and out of the port of entry.
    We worked with TRW back in the day, which was making 
airbags for cars, and they had argon in the airbags and that is 
not really a bad substance.
    But because we didn't have the personnel, we didn't have 
the hazmat pit, what have you, we couldn't recruit them, and 
there are several companies like that that we have lost. But it 
is a combination of all of that. I mean, it is a investment 
across all those lines.
    Mr. Crenshaw. Thank you very much.
    Thank you, Madam Chair.
    Ms. Torres Small. Thank you, Ranking Member.
    Thank you so much for your testimony. I deeply appreciate 
the witnesses' time and expertise.
    Before adjourning, I ask unanimous consent to submit 4 
statements for the record.
    The first is from Jon Barela, CEO of the Borderplex 
Alliance. The second is from Anthony Reardon, national 
president of the National Treasury Employees Union.
    The third statement is from Dell Technologies and the 
final* is a priority list of projects developed by industry and 
CBP for the Santa Teresa port of entry.
---------------------------------------------------------------------------
    * The information was not available at the time of publication.
---------------------------------------------------------------------------
    Without objection, so admitted.
    [The information referred to follows:]
         Statement of Jon Barela, CEO, The Borderplex Alliance
                              Dec. 2, 2019
    The Borderplex Alliance is a nonprofit organization dedicated to 
economic development and policy advocacy in the El Paso, Texas; Las 
Cruces, New Mexico; and Cd. Juarez, Chihuahua region.
    Located in a gateway for international trade, The Borderplex 
Alliance is the go-to resource for regional ideas, information, and 
influence. We are supported by a coalition of over 250 businesses, 
community and civic leaders, all with a shared vision--bringing new 
investment and jobs to the Borderplex region and creating a positive 
business climate.
    The Borderplex Alliance provides regional, national, and 
international development, advocacy, representation, and support to 
businesses looking to expand their operations within the Borderplex 
region. The organization also serves as an advocate for the region in 
state and national capitals, promoting the economic prosperity of the 
region and the strength of the U.S.-Mexico relationship.
    The U.S.-Mexico border is a dynamic and critical economic driver 
for the United States. Investing in infrastructure at our ports of 
entry and prioritizing the facilitation of legitimate trade and travel 
between the United States and Mexico will pay significant dividends for 
our economy.
    We need a bipartisan, economically prudent approach to legislation 
impacting the U.S.-Mexico border. Doing so will improve North America's 
economic competitiveness, help secure the border, and address the 
migration crisis in a way that treats migrants with dignity and respect 
while following U.S. law and keeping within the best traditions of our 
Nation. When considering legislation related to the U.S.-Mexico border, 
please keep in mind these 3 compelling points.
    First, Mexico is an economic and strategic ally of the United 
States, not a foe. Mexico is currently our third largest goods trading 
partner. In 2018 the total U.S. goods and services traded with Mexico 
reached $671.0 billion. In 2017 Mexico invested $18.0 billion in the 
United States. This trade and investment on both sides of the border 
result in a symbiotic relationship with sophisticated supply chains 
that route goods back and forth across borders and ultimately to 
consumers around the world. This trade and investment is not a zero-sum 
game. It creates jobs, hope, and opportunity on both sides of the 
border.
    In the Midwest, more than 700,000 jobs directly rely on trade with 
Mexico. Nationally, that figure is between 5 and 6 million. That is why 
the ratification of the United States-Mexico-Canada Agreement is so 
critical to keeping this fruitful relationship between our great 
nations. The Borderplex region is the at the heart the relationship and 
is the gateway of trade for the Americas. El Paso ports saw $81.9 
billion worth of trade in 2018, up 5.1 percent from in 2017. Investing 
in and modernizing these ports should be a priority to help make wait 
times more predictable and shorter. It will also make the Nation more 
prosperous.
    Second, urgently-needed infrastructure improvements not only 
facilitate legitimate commerce, but it also helps secure the southern 
frontier. Securing the border and facilitating trade are not mutually 
exclusive. Every minute $1 million worth of goods and services are 
traded between the United States and Mexico. Delays and unpredictable 
wait times at are our ports of entry are devastating business along the 
border and across the Nation. I've heard from multiple companies who 
were operating at 20-50 percent capacity, waiting 12-24 hours to get 
their shipments through the ports of entry.
    One employer furloughed hundreds of employees and reduced their 
hours. This employer is a canary in the coal mine for global supply 
chains. He is a scrap metal supplier. His goods make their way into 
auto parts. He told us that due to the delays in crossing the ports of 
entry, companies in Mexico are making fewer goods and thus less scrap 
metal. These conditions create a ripple effect through the national 
economy that could turn into a tsunami of potential job losses in the 
United States.
    The unpredictable and unacceptably long wait times are causing 
another member company of the Borderplex Alliance to move jobs from a 
plant in New Jersey to a facility in Eastern Europe in order to ensure 
continuity of product availability in the U.S. market. His products are 
life-saving medical equipment, such as heart stents used in the United 
States.
    The cadence and flow of tractor-trailers that travel back and forth 
between the United States and Mexico, first with raw materials and then 
with finished goods is part of the rhythm of investment and jobs. 
Disruptions in trade cause factories to slow or halt production, reduce 
hours or jobs, and create the conditions that result in emigration from 
the South to the North.
    Long and unpredictable wait times at the ports of entry have been a 
problem on the border for decades. It is a bipartisan problem that 
should have been solved years ago. Only now, however, with the threat 
to shut the Southern Border, this problem has become a National 
economic security concern. I suggest Congress use the President's $5.7 
billion funding request for a border wall to:
  <bullet> Hire more CBP officers;
  <bullet> Invest in advanced technology at our ports; and
  <bullet> Increase staffing at our ports during peak hours.
    Third, we need a humane, rational, and long-term solution that 
works for immigrants and U.S. citizens alike. Immigration is a complex, 
multidimensional issue with economic push and pull factors at its 
heart. But when as a Nation we embrace trade, globalization, and a 
rules-based international order we can increase opportunity for 
everyone. I urge the Members of this committee to help us address this 
specific problem locally and more broadly work across the aisle to fix 
our broken immigration policies on the Federal level. Specifically, I 
believe Congress should:
  <bullet> Streamline legal immigration;
  <bullet> Clarify our asylum laws;
  <bullet> Hire more immigration judges;
  <bullet> Co-locate immigration processing centers with immigration 
        courts;
  <bullet> Create a special envoy to the North Triangle Countries to 
        help rebuild civil society and institutions; and
  <bullet> Work in a multilateral fashion with governments and 
        international organization such as the Organization of American 
        States, and others.
    Thank you for the opportunity to share my thoughts on this critical 
subject.
                                 ______
                                 
Statement of Anthony M. Reardon, National President, National Treasury 
                            Employees Union
                            December 2, 2019
    Chairwoman Torres Small, Ranking Member Crenshaw, and distinguished 
Members of the subcommittee, thank you for the opportunity to submit 
this statement for the record. As president of the National Treasury 
Employees Union (NTEU), I have the honor of leading a union that 
represents over 27,000 Customs and Border Protection (CBP) officers, 
agriculture specialists, and trade enforcement personnel stationed at 
328 land, sea, and air ports of entry across the United States (U.S.) 
and 16 Preclearance stations in Ireland, the Caribbean, Canada, and 
United Arab Emirates airports. CBP's Office of Field Operations (OFO) 
pursues a dual mission of safeguarding American ports, by protecting 
the public from dangerous people and materials, while enhancing the 
Nation's global and economic competitiveness by enabling legitimate 
trade and travel. CBP OFO employees are responsible for border 
security, including anti-terrorism, immigration, anti-smuggling, trade 
compliance, and agriculture protection at U.S. ports of entry.
    CBP OFO employees at the ports of entry are the second-largest 
source of revenue collection for the U.S. Government. In 2018, CBP 
processed more than $2.8 trillion in imports and collected 
approximately $44 billion in duties, taxes, and other fees. Their role 
of facilitating legal trade and travel is a significant economic driver 
for private-sector jobs and economic growth. According to CBP, for 
every 1,000 CBP officers hired there is an increase in the Gross 
Domestic Product (GDP) of $2 billion; $642 million in opportunity costs 
are saved (the amount of time that a traveler could be using for 
purposes other than waiting in line, such as working or enjoying 
leisure activities); and 33,148 annual jobs are added.
    In addition, according to the Joint Economic Committee (JEC), the 
volume of commerce crossing our borders has more than tripled in the 
past 25 years. Long wait times lead to delays and travel time 
uncertainty, which can increase supply chain and transportation costs. 
According to the Department of Commerce, border delays result in losses 
to output, wages, jobs, and tax revenue due to decreases in spending by 
companies, suppliers, and consumers. JEC research finds border delays 
cost the U.S. economy between $90 million and $5.8 billion each year.
    Unfortunately, according to CBP on-board staffing data, there is a 
shortage of approximately 2,700 CBP officers at the ports of entry. 
NTEU was pleased that the final fiscal year 2019 Omnibus agreement 
provided $58.7 million in funding to hire 600 new CBP officers. Yet, 
The President's fiscal year 2020 budget requests only $28 million to 
fund the hiring of 171 new Customs and Border Protection officers, 91 
Mission and Operational Support positions, and 5 agriculture 
specialists. The Senate Appropriations Committee bill is equally 
disappointing in that it provides only $18.2 billion for 119 CBP 
officer new hires, but no funding to address the CBP agriculture 
specialists shortage at the ports of entry.
    On the other hand, the House bill goes far to address the staffing 
shortages at CBP by providing $151 million for 1,846 CBP new positions 
at the ports of entry, as follows:
  <bullet> $91 million for 1,200 CBP officers;
  <bullet> $30.7 million for 406 mission support personnel; and
  <bullet> $29.8 million for 240 agriculture specialists.
    This significant difference in fiscal year 2020 CBP funding 
priorities between the House and Senate versions of the bill will need 
to be resolved before the expected expiration of the Continuing 
Resolution on December 20. NTEU strongly supports the funding level for 
CBP employees at the ports of entry in the House version of the DHS 
funding bill and urges Congress to maintain these numbers in the final 
fiscal year 2020 DHS funding agreement.
                       santa teresa port of entry
    The Santa Teresa port of entry has 3 maximum commercial vehicle 
lanes, 4 maximum passenger vehicle lanes, and 2 pedestrian lanes and is 
open every day from 6 o'clock am to 12 o'clock midnight. It is NTEU's 
understanding that the Port of Santa Teresa is experiencing a serious 
staffing shortage. Due to lack of CBP officer staffing, only 2 of the 4 
passenger vehicle lanes are usually open on weekdays, but the port 
frequently opens 3 to 4 passenger vehicle lanes during peak times and 
on weekends regardless of staffing. As a result, officers are being 
ordered to work double shifts on a daily basis and they're even pulling 
officers from the K-9 units to compensate for the lack of staffing.
    It is estimated that to be adequately staffed as an 18-hour port, 
Santa Teresa port of entry would need 10 to 15 more officers assigned. 
In order to expand the port's operating hours to 24 hours a day, the 
port would need to add 20 to 25 additional Officers.
                          cbp officer overtime
    Due to the on-going current staffing shortage of 2,700 CBP 
officers, CBP officers Nation-wide are working excessive overtime to 
maintain basic port staffing. Currently, CBP officer overtime pay is 
entirely funded through user fees and is statutorily capped at $45,000 
per year. All CBP officers are aware that overtime assignments are an 
aspect of their jobs. However, long periods of overtime hours can 
severely disrupt an officer's family life, morale, and ultimately their 
job performance protecting our Nation.
    Because CBP officers can be required to regularly work overtime, 
many individual officers hit the overtime cap very early in the fiscal 
year. This leaves no overtime funding available for peak season travel, 
resulting in critical staffing shortages in the third and fourth 
quarter of the fiscal year that usually coincides with holiday travel 
at the ports.
    To address this issue, at many ports, CBP has granted overtime cap 
exemptions to over one-half of the workforce to allow managers to 
assign overtime to officers that have already reached the statutory 
overtime cap, but cap waivers only force CBP officers already working 
long daily shifts to continue working these shifts for more days. 
Officers are required to come in hours before their regular shifts, to 
stay an indeterminate number of hours after their shifts (on the same 
day) and are often compelled to come in for more overtime hours on 
their regular days off. Involuntary overtime resulting in 12- to 16-
hour shifts, day after day, for months on end significantly disrupts 
CBP officers' family life and erodes morale. As NTEU has repeatedly 
stated, this is not a long-term solution for staffing shortages at the 
ports and has gone on for far too long.
      temporary duty assignments at southwest land ports of entry
    Due to CBP's on-going staffing shortage, since 2015, CBP has been 
diverting hundreds of CBP officers from other air, sea, and land ports 
to severely short-staffed Southwest land ports for Temporary Duty 
Assignments (TDYs). CBP recently ended CBP officer TDYs to Border 
Patrol sectors across the Southwest Border. From May through September 
2019, CBP deployed a total of 731 CBP officers to designated Border 
Patrol Sectors. In this latest deployment, 245 officers were sent from 
the SW Border Field Offices with the remaining 486 officers coming from 
the other Field Offices.
    According to a newly-released study, ``The Economic Costs of the 
U.S.-Mexico Slowdown,'' this most recent TDY has resulted in a 
significant slowdown at the U.S.-Mexico border leading to substantial 
economic harms. Millions of trucks carry goods across the border every 
year and delays at land ports cause cascading logistical problems. The 
current slowing on the U.S.-Mexico border is reducing efficiency and 
costing the U.S. economy billions in output and hundreds of thousands 
of jobs. If the diversion of CBP officers from the Southwest Border 
international land ports continues, the State of Texas alone could lose 
more than $32 billion in gross domestic product in just over 3 months. 
If there is a one-third reduction in trade between the United States 
and Mexico over a 3-month period, the cost to the U.S. economy would be 
over ``$69 billion in gross product and 620,236 job-years (when 
multiplier effects are considered). Almost half of these losses occur 
in Texas.''
    NTEU urges Congress to require CBP to allocate personnel and 
resources appropriately to ensure timely processing of people at ports 
of entry and better manage the changing demographic flows at our 
Southern Border. To end all these TDYs, CBP must fill existing CBP 
officer vacancies and Congress must fund the hiring of the additional 
CBP officers called for in CBP's own Workload Staffing Model. Without 
addressing the 2,700 CBP officer shortfall, allocating adequate 
staffing at all ports will remain a challenge.
                          opioid interdiction
    CBP OFO is the premier component at the Department of Homeland 
Security (DHS) tasked with stemming the Nation's opioid epidemic--a 
crisis that is getting worse. According to a May 2018 report released 
by the Senate Homeland Security and Governmental Affairs Committee 
Minority titled Combatting the Opioid Epidemic: Intercepting Illicit 
Opioids at Ports of Entry, ``between 2013 and 2017, approximately 
25,405 pounds, or 88 percent of all opioids seized by CBP, were seized 
at ports of entry. The amount of fentanyl seized at the ports of entry 
increased by 159 percent from 459 pounds in 2016 to 1,189 pounds in 
2017.''
    On January 26, 2019, CBP OFO made their biggest fentanyl seizure 
ever, capturing nearly 254 pounds of the deadly synthetic opioid at the 
Nogales port of entry. According to the Drug Enforcement 
Administration, just 2 milligrams of fentanyl is considered a lethal 
dose. From the January 26 seizure alone, it is estimated that CBP 
officers seized enough fentanyl to kill 57 million people. That's more 
than the combined population of the States of Illinois, New York, and 
Pennsylvania. The street value of the seized fentanyl was over $102 
million. CBP officers also seized an additional 2.2 pounds of fentanyl 
pills and a large cache of methamphetamine.
    In most cases, fentanyl is manufactured in other countries such as 
China and then smuggled through the ports of entry along the Southwest 
Border and through international mail and Private Express Carrier 
Facilities, e.g. FedEx and UPS. Over the past 5 years, CBP has seen a 
nearly 50 percent increase in express consignment shipments and a 200 
percent increase in international mail shipments. Yet, according to 
CBP, over the last 3 years, there were only 181 CBP employees assigned 
to the 5 Postal Service International Service Centers and 208 CBP 
employees assigned to the Private Express Carrier Facilities. NTEU is 
encouraged to see that CBP has started to increase staffing at these 
facilities over the past year and supports fiscal year 2020 funding 
levels that would further increase CBP staff at these facilities.
    Noting the positive impact of hiring additional CBP officers, it is 
troubling that the President's 2017 Border Security Executive Order and 
his subsequent budget requests fail to fund a major increase in 
critically-needed CBP officer new hires. In 2017, CBP officers at the 
ports of entry recorded over 216,370 apprehensions and seized over 
444,000 pounds of illegal drugs, and over $96 million in illicit 
currency, while processing over 390 million travelers and $2.2 trillion 
in imports through the ports. This is why, in addition to supporting 
additional funding for staffing, NTEU strongly supports S. 1004, the 
Safeguarding American Ports Act, a bipartisan bill introduced by 
Senators Peters and Cornyn. S. 1004 authorizes the hiring of 600 CBP 
officers and requisite support staff to each year until the staffing 
gap in CBP's Workload Staffing Model is met. NTEU urges the House to 
introduce and enact a companion CBP officer staffing authorization 
bill.
             agriculture specialist staffing authorization
    The U.S. agriculture sector is a crucial component of the American 
economy, generating over $1 trillion in annual economic activity. 
According to the U.S. Department of Agriculture, foreign pests and 
diseases cost the American economy tens of billions of dollars 
annually. CBP employees perform critically important agricultural 
inspections every day at our Nation's ports of entry. CBP agriculture 
specialists play a vital role in both trade and travel safety and 
prevent the introduction of harmful exotic plant pests and foreign 
animal diseases, and potential ag/bioterrorism into the United States. 
For years, NTEU has championed the CBP agriculture specialists' 
Agriculture Quality Inspection (AQI) mission within the agency and 
fought for increased staffing to fulfill that mission. Unfortunately, 
our ports of entry are currently understaffed by 721 agriculture 
specialist positions as determined by CBP's own Agriculture Specialist 
Resource Allocation Model.
    To address the shortage of agriculture specialists who protect our 
food supply and agricultural industries at the border, legislation has 
been introduced in both the House and Senate. S. 2107 and H.R. 4482, 
the Protecting America's Food & Agriculture Act of 2019, would ensure 
the safe and secure trade of agricultural goods across our Nation's 
borders by authorizing the annual hiring of 240 agriculture specialists 
and 200 agriculture technicians a year until the workforce shortage is 
filled. These bills also authorize the training and assignment of 20 
new canine teams a year, which have proven valuable in detecting 
illicit fruits, vegetables, and animal products that may have otherwise 
been missed in initial inspections. Finally, the bills authorize 
supplemental appropriations each year to pay for the activities of the 
agriculture specialists, agriculture technicians, and canine teams.
    S. 2107 was recently approved by the full Senate and its companion 
bill, H.R. 4482, is awaiting House action. Because of CBP's mission to 
protect the Nation's agriculture from pests and disease, NTEU urges the 
committee to quickly consider and approve this important legislation.
                          cbp funding sources
    In addition to annual appropriations, CBP collects Customs User 
Fees (CUFs), including those under the Consolidated Omnibus Budget 
Reconciliation Act of 1985 (COBRA), to recover certain costs incurred 
for processing air and sea passengers and various private and 
commercial land, sea, air, and rail carriers and shipments. The source 
of these user fees are commercial vessels, commercial vehicles, rail 
cars, private aircraft, private vessels, air passengers, sea 
passengers, cruise vessel passengers, dutiable mail, customs brokers, 
and barge/bulk carriers.
    COBRA fees are deposited into the Customs User Fee Account and are 
designated by statute to pay for services provided to the user, such as 
100 percent of inspectional overtime for passenger and commercial 
vehicle inspection during overtime shift hours. Of the 24,576 CBP 
officers currently funded, Customs User Fees (CUFs) fund 3,825 full-
time equivalent (FTEs) CBP officers. Further, Immigration Inspection 
User Fees (IUF) fund 4,179 CBPO FTEs. In total, CUF and IUF user fees 
fund 8,004 CBPO FTEs or one-third of the entire CBP workforce at the 
ports of entry.
    The President's fiscal year 2020 budget again proposes user fee 
increases, however, these user fees cannot be increased without 
Congress first enacting legislation. Legislative proposals to increase 
user fees have been part of the administration's annual budget 
submission since fiscal year 2014, but the committees with jurisdiction 
have not acted on these long-standing legislative proposals.
    The fiscal year 2020 budget request also proposes to redirect 
approximately $160 million in the Electronic System for Travel 
Authorization (ESTA) fees from Brand USA to CBP. This change would 
require Congress to amend the Travel Promotion Act of 2009 (Pub. L. 
111-145). If Congress does not enact legislation to transfer Brand USA 
fee authority to CBP by fiscal year 2020, the administration's ESTA 
proposal would create a $160 million shortfall in CBP's operating 
budget. NTEU supports legislation redirecting ESTA fees to CBP but 
urges Congress to ensure that this increase in fee revenue to hire new 
CBP officers does not offset appropriated funding levels, but instead 
augments this funding.
    NTEU also strongly opposes the diversion of CUFs. Any increases to 
the CUF Account should be properly used for much-needed CBP staffing 
and not diverted to unrelated projects. Unfortunately, while section 
52202 of the FAST Act (Pub. L. No. 114-94) indexed CUFs to inflation, 
it diverted this funding from CBP to pay for unrelated infrastructure 
projects. Indexing COBRA CUFs to inflation provides $1.4 billion in 
additional funding over 10 years. However, diverting these funds has 
cost CBP $140 million per year in funding that could have been used to 
hire over 900 new CBP officers per year since the FAST Act went into 
effect. These new hires would have significantly alleviated the current 
CBP officer staffing shortage.
    Finally, in order to find alternative sources of funding to address 
serious staffing shortages, CBP received authorization for and has 
entered into Reimbursable Service Agreements (RSAs) with the private 
sector, as well as with State and local governmental entities. These 
stakeholders, who are already paying CUFs and IUFs for CBP OFO employee 
positions and overtime, reimburse CBP for additional inspection 
services, including overtime pay and the hiring of new CBP officer and 
agriculture specialist personnel that in the past have been paid for 
entirely by user fees or appropriated funding. According to CBP, since 
the program began in 2013, CBP has entered into agreements with over 
149 stakeholders covering 111 U.S. ports of entry, providing more than 
467,000 additional processing hours for incoming commercial and cargo 
traffic.
    NTEU believes that the RSA program is a Band-Aid approach and 
cannot replace the need for Congress to either appropriate new funding 
or authorize an increase in customs and immigration user fees to 
adequately address CBP staffing needs at the ports. RSAs simply cannot 
replace the need for an increase in CBP-appropriated or user fee 
funding--and make CBP a ``pay to play'' agency. NTEU also remains 
concerned with CBP's new Preclearance expansion program that also 
relies heavily on ``pay to play.'' Further, NTEU believes that the use 
of RSAs to fund CBP staffing shortages raises significant equity issues 
between larger and/or wealthier ports and smaller ports.
                          nteu recommendations
    To address CBP's workforce challenges at the Santa Teresa port of 
entry and ports of entry Nation-wide, it is clearly in the Nation's 
economic and security interest for Congress to authorize and fund a 
significant increase in the number of CBP officers, CBP agriculture 
specialists, and other CBP employees.
    In order to achieve the long-term goal of securing the proper 
staffing at CBP and end disruptive TDYs and excessive involuntary 
overtime shifts, NTEU recommends that Congress take the following 
actions:
  <bullet> Support fiscal year 2020 funding for 1,200 CBP officer, 240 
        agriculture specialist, and additional mission support new 
        hires;
  <bullet> Approve H.R. 4482 to authorize the funding of CBP 
        agriculture specialist new hires up to the number specified in 
        CBP's own Agriculture Specialist Resource Allocation Model; and
  <bullet> Introduce and enact legislation to authorize the funding of 
        CBP officer new hires up to the number specified in CBP's own 
        CBP Officer Workload Staffing Model.
    Congress should also redirect the increase in customs user fees in 
the FAST Act from offsetting transportation spending to its original 
purpose of providing funding for CBP officer staffing and overtime and 
oppose any legislation to divert additional fees collected to other 
uses or projects.
    NTEU is not alone in seeking increased funding to hire new CBP 
officers and agriculture specialists at the ports. A diverse group of 
business, industry, and union leaders have joined forces in support of 
legislation and funding to hire more Customs and Border Protection 
personnel and alleviate staffing shortages at the Nation's ports of 
entry. The coalition--which includes leading voices from various 
shipping, tourism, travel, trade, law enforcement, and employee 
groups--sent the attached letter to House and Senate appropriators 
urging them to include funding for new 1,200 CBP officers in the final 
fiscal year 2020 Homeland Security Appropriations Act (see attached).
    Thank you for the opportunity to submit NTEU's statement for the 
record.
                               Attachment
                                  October 28, 2019.
The Honorable Nita Lowey,
Chairwoman, Committee on Appropriations, U.S. House of Representatives, 
        Washington, DC 20515.
The Honorable Kay Granger,
Ranking Member, Committee on Appropriations, U.S. House of 
        Representatives, Washington, DC 20515.
The Honorable Richard Shelby,
Chairman, Committee on Appropriations, U.S. Senate, Washington, DC 
        20510.
The Honorable Patrick Leahy,
Vice Chairman, Committee on Appropriations, U.S. Senate, Washington, DC 
        20510.
    Dear Chairwoman Lowey, Chairman Shelby, Ranking Member Granger, and 
Vice Chairman Leahy: As stakeholders interested in the facilitation 
activities of Customs and Border Protection (CBP), we are all affected 
by the shortfall of CBP officers at our land, sea, and air ports-of-
entry around the globe. To help the agency meet its current and future 
staffing needs, we strongly urge that the final Fiscal Year 2020 
Homeland Security Appropriations Act include a House provision to fund 
1,200 new CBP officers over the current staffing level.
    With CBP's onboard data and most recent workload staffing model 
showing a shortage of over 2,700 officers, current staffing levels fail 
to address the growing demands of travel and trade at our ports-of-
entry. Providing additional CBP officers at this time of growing 
volumes of international passengers and cargo would both reduce lengthy 
wait times and facilitate new economic opportunities in communities 
throughout the United States.
    Increasing CBP officer staffing is an economic driver for the U.S. 
economy. According to the Joint Economic Committee (JEC), ``every day 
1.1 million people and $5.9 billion in goods legally enter and exit 
through the ports of entry.'' CBP estimates that the annual hiring of 
an additional 1,200 CBP officers at the ports-of-entry could increase 
yearly economic activity by over $2 billion and result in the addition 
of over 34,000 new jobs.
    While the volume of commerce crossing our borders has more than 
tripled in the past 25 years, CBP staffing has not kept pace with 
demand. Long wait times at our ports-of-entry lead to travel delays and 
uncertainty, which can increase supply chain costs and cause passengers 
to miss their connections. According to the U.S. Department of 
Commerce, border delays result in losses to output, wages, jobs, and 
tax revenue due to decreases in spending by companies, suppliers, and 
consumers. The travel industry estimates long CBP wait times discourage 
international visitors, who spend an average of $4,200 per visit, from 
traveling to the United States. JEC research also finds border delays 
cost the U.S. economy upwards of $5 billion each year.
    We share your commitment to ensuring that America's borders remain 
safe, secure, and efficient for all users, while enhancing our global 
competitiveness through the facilitation of legitimate travel and 
trade. We greatly appreciate your efforts to continue building on 
staffing advances made in recent years, and we strongly urge you to 
include funding for new 1,200 CBP officers in the final Fiscal Year 
2020 Homeland Security Appropriations Act.
            Sincerely,
              Airports Council International--North America
                   American Association of Port Authorities
                          National Treasury Employees Union
                 American Association of Airport Executives
                        American Society of Travel Advisors
                             American Trucking Associations
                                        Borderplex Alliance
                                      Border Trade Alliance
                     Cruise Lines International Association
               Federal Law Enforcement Officers Association
                  Fresh Produce Association of the Americas
                         Global Business Travel Association
               National Association of Waterfront Employers
                              New York Shipping Association
                                   U.S. Chamber of Commerce
                           United States Maritime Alliance.
                                 ______
                                 
                     Statement of Dell Technologies
                            December 2, 2019
    Thank you for the opportunity to provide comments on Dell 
Technologies' experience with the Santa Teresa port of entry. We 
appreciate the professional men and women who staff the Customs and 
Border Protection (CBP) ports of entry, as Dell moves about $10 billion 
in goods from Mexico to the United States via the Santa Teresa port of 
entry each year, and ships raw materials to Mexico from the United 
States. As a consequence, Santa Teresa is a key component of our supply 
chain.
                 dell's reimbursable services agreement
    Under the provisions of Section 559 of Division F of the 
Consolidated Appropriations Act of 2014 (Pub. L. 113-76), U.S. Customs 
and Border Protection (CBP) is authorized to enter into agreements to 
provide CBP services on a reimbursable basis. Payments received by CBP 
under Reimbursable Services Agreements (RSAs) are used to reimburse CBP 
for costs incurred in providing services such as additional or expanded 
service hours at existing CBP facilities or services at new facilities. 
Once approved, RSA programs are on-going until either party decides it 
no longer can or wants to participate agreement.
    In October 2015, Dell Inc. signed an RSA with for additional 
inspection services at the Santa Teresa, New Mexico port of entry. The 
Dell-CBP RSA initially extended inspection services for 4 hours after 
normal border operations closed. Normal operating hours for the port's 
commercial lanes were 8 o'clock am to 8 o'clock pm on weekdays; Dell's 
RSA ran from 8 o'clock pm to 12 o'clock am. Weekends are not part of 
the RSA agreement. The RSA can be used by any company using the Santa 
Teresa port of entry.
    In 2019, CBP announced a 6-month Pilot program that reduced the 
covered period to 2 hours due to security issues and workforce 
transition at the New Mexico border and at CBP. The pilot program 
shifted the hours of operation of the Santa Teresa port of entry to 6 
o'clock am to 8 o'clock pm on weekdays. Santa Teresa has been closed 
for commercial traffic on Saturdays the start of the pilot. The Joint 
Customs Onsite Pre-inspections with Mexico and CBP, which included a 
private lane for north-bound and south-bound shipments supporting raw 
materials and finished goods from 8 am to 4 pm weekdays, has also been 
affected and is currently closed due to staffing restrictions.
                assessment of current staffing and hours
    While there are enough officers to support daily weekday shifts 
under the reduced 2 hours of the Dell RSA and CBP's pilot program, it 
has affected Dell's shipments transiting the Santa Teresa port of 
entry. The workforce reduction has impacted over 36,000 customer units 
weekly, both finished goods (customer shipments) departing Mexico, and 
raw materials (assembly parts) exported to Mexico for planning and 
production. Due to the staffing changes, Dell's RSA was reduced to 2 
hours, running from 8 o'clock pm to 10 o'clock pm, impacting 21,000 
units weekly. The closure of Santa Teresa's weekend commercial lane 
closure affects 15,000 units weekly.
                               conclusion
    The CBP pilot and related staffing changes have introduced 
additional unpredictability in the timing and location of where 
shipments will be processed. As a consequence, we recommend that the 
CBP pilot be brought to a conclusion so that the Santa Teresa port of 
entry can return to is previous operating hours of 8 o'clock am to 8 
o'clock pm weekdays and 10 o'clock am to 2 o'clock pm on weekends. In 
that event, Dell would support returning to 4 hours of operations under 
the terms of its RSA. In addition, if CBP were to expand staffing more 
generally at the Santa Teresa port of entry, larger volumes of trade 
could be processed on a daily basis.
    As stated previously, we appreciate the professionalism of the CBP 
officers at both the Santa Teresa and El Paso ports of entry and look 
forward to working with you and the CBP to further enhance cross-border 
trade.
    Thank you for the opportunity to submit comments. For further 
information, please contact Erin Ennis, senior director for global 
public policy at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="096c7b6067276c6767607a496d6c6565276a666427">[email&#160;protected]</a>

    Ms. Torres Small. The Members of the subcommittee may have 
additional questions for the witnesses and we ask that you 
respond expeditiously in writing to those questions.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 1:51 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
